<html>
<title> - SCIENTIFIC INTEGRITY IN FEDERAL AGENCIES</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
                          SCIENTIFIC INTEGRITY
                          IN FEDERAL AGENCIES

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                SUBCOMMITTEE ON RESEARCH AND TECHNOLOGY
              SUBCOMMITTEE ON INVESTIGATIONS AND OVERSIGHT

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 17, 2019

                               __________

                           Serial No. 116-39

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
 
 
 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
 
 
 


       Available via the World Wide Web: http://science.house.gov
       
       
       
       
                             ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
 37-036PDF               WASHINGTON : 2020      
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

             HON. EDDIE BERNICE JOHNSON, Texas, Chairwoman
ZOE LOFGREN, California              FRANK D. LUCAS, Oklahoma, 
DANIEL LIPINSKI, Illinois                Ranking Member
SUZANNE BONAMICI, Oregon             MO BROOKS, Alabama
AMI BERA, California,                BILL POSEY, Florida
    Vice Chair                       RANDY WEBER, Texas
CONOR LAMB, Pennsylvania             BRIAN BABIN, Texas
LIZZIE FLETCHER, Texas               ANDY BIGGS, Arizona
HALEY STEVENS, Michigan              ROGER MARSHALL, Kansas
KENDRA HORN, Oklahoma                RALPH NORMAN, South Carolina
MIKIE SHERRILL, New Jersey           MICHAEL CLOUD, Texas
BRAD SHERMAN, California             TROY BALDERSON, Ohio
STEVE COHEN, Tennessee               PETE OLSON, Texas
JERRY McNERNEY, California           ANTHONY GONZALEZ, Ohio
ED PERLMUTTER, Colorado              MICHAEL WALTZ, Florida
PAUL TONKO, New York                 JIM BAIRD, Indiana
BILL FOSTER, Illinois                JAIME HERRERA BEUTLER, Washington
DON BEYER, Virginia                  JENNIFFER GONZALEZ-COLON, Puerto 
CHARLIE CRIST, Florida                   Rico
SEAN CASTEN, Illinois                VACANCY
KATIE HILL, California
BEN McADAMS, Utah
JENNIFER WEXTON, Virginia
                                 ------                                

                Subcommittee on Research and Technology

                HON. HALEY STEVENS, Michigan, Chairwoman
DANIEL LIPINSKI, Illinois            JIM BAIRD, Indiana, Ranking Member
MIKIE SHERRILL, New Jersey           ROGER MARSHALL, Kansas
BRAD SHERMAN, California             TROY BALDERSON, Ohio
PAUL TONKO, New York                 ANTHONY GONZALEZ, Ohio
BEN McADAMS, Utah                    JAIME HERRERA BEUTLER, Washington
STEVE COHEN, Tennessee
BILL FOSTER, Illinois
                                 ------                                

              Subcommittee on Investigations and Oversight

              HON. MIKIE SHERRILL, New Jersey, Chairwoman
SUZANNE BONAMICI, Oregon             RALPH NORMAN, South Carolina, 
STEVE COHEN, Tennessee                   Ranking Member
DON BEYER, Virginia                  ANDY BIGGS, Arizona
JENNIFER WEXTON, Virginia            MICHAEL WALTZ, Florida


                         C  O  N  T  E  N  T  S

                             July 17, 2019

                                                                   Page
Hearing Charter..................................................     2

                           Opening Statements

Statement by Representative Haley Stevens, Chairwoman, 
  Subcommittee on Research and Technology, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........     8
    Written Statement............................................     9

Statement by Representative Jim Baird, Ranking Member, 
  Subcommittee on Research and Technology, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    10
    Written Statement............................................    11

Statement by Representative Mikie Sherrill, Chairwoman, 
  Subcommittee on Investigations and Oversight, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..    11
    Written Statement............................................    12

Statement by Representative Paul Tonko, Subcommittee on Research 
  and Technology, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................    13
    Written Statement............................................    14

Statement by Representative Ralph Norman, Ranking Member, 
  Subcommittee on Investigations and Oversight, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..    15
    Written Statement............................................    16

Written statement by Representative Eddie Bernice Johnson, 
  Chairwoman, Committee on Science, Space, and Technology, U.S. 
  House of Representatives.......................................    17

                               Witnesses:

Mr. John Neumann, Managing Director, Science, Technology 
  Assessment, and Analytics, U.S. Government Accountability 
  Office
    Oral Statement...............................................    19
    Written Statement............................................    21

Mr. Michael Halpern, Deputy Director, Center for Science and 
  Democracy, Union of Concerned Scientists
    Oral Statement...............................................    34
    Written Statement............................................    36

Dr. Roger Pielke Jr., Director, Sports Governance Center; 
  Professor, Environmental Studies Program, University of 
  Colorado Boulde
    Oral Statement...............................................    58
    Written Statement............................................    60

Mr. Joel Clement, Arctic Initiative Senior Fellow, Belfer Center 
  for Science and International Affairs, John F. Kennedy School 
  of Government at Harvard University
    Oral Statement...............................................    71
    Written Statement............................................    73

Discussion.......................................................    79

             Appendix I: Answers to Post-Hearing Questions

Mr. John Neumann, Managing Director, Science, Technology 
  Assessment, and Analytics, U.S. Government Accountability 
  Office.........................................................   106

Mr. Michael Halpern, Deputy Director, Center for Science and 
  Democracy, Union of Concerned Scientists.......................   107

Mr. Joel Clement, Arctic Initiative Senior Fellow, Belfer Center 
  for Science and International Affairs, John F. Kennedy School 
  of Government at Harvard University............................   116

            Appendix II: Additional Material for the Record

Letter submitted by Representative Haley Stevens, Chairwoman, 
  Subcommittee on Research and Technology, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........   120

Letters submitted by Representative Paul Tonko, Subcommittee on 
  Research and Technology, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................   121

Correspondence submitted by Representative Ralph Norman, Ranking 
  Member, Subcommittee on Investigations and Oversight, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................   124

Letter submitted by Representative Jennifer Wexton, Subcommittee 
  on Investigations and Oversight, Committee on Science, Space, 
  and Technology, U.S. House of Representatives..................   134

Document submitted by Representative Steve Cohen, Subcommittee on 
  Investigations and Oversight and Subcommittee on Research and 
  Technology, Committee on Science, Space, and Technology, U.S. 
  House of Representatives.......................................   137

Letter submitted by Representative Mikie Sherrill, Chairwoman, 
  Subcommittee on Investigations and Oversight, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..   139


                          SCIENTIFIC INTEGRITY



                           IN FEDERAL AGENCIES

                              ----------                              


                        WEDNESDAY, JULY 17, 2019

                  House of Representatives,
           Subcommittee on Research and Technology,
 joint with the Subcommittee on Investigations and 
                                         Oversight,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittees met, pursuant to notice, at 10:02 a.m., 
in room 2318 of the Rayburn House Office Building, Hon. Haley 
Stevens [Chairwoman of the Subcommittee on Research and 
Technology] presiding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairwoman Stevens. This hearing will come to order. 
Without objection, the Chair is authorized to declare recess at 
any time.
    Good morning, and thank you to our witnesses for being here 
to discuss policies and procedures governing scientific 
integrity at Federal agencies. Thank you to everyone who has 
joined us here this morning.
    Let me be clear among friends and witnesses. This is not a 
Democratic or Republican issue. It's not about one 
Administration or another. It is about ensuring public trust in 
the conduct, dissemination, and use of scientific research in 
the Federal Government. An overview of recent history is 
essential.
    In 2010, then-White House Office of Science and Technology 
Policy Director, Dr. John Holdren, issued a memorandum that 
laid out basic principles for the development and 
implementation of scientific integrity policies at all 
agencies. By the end of the Obama Administration, 24 Federal 
agencies had published scientific integrity policies consistent 
with the intent of the memo.
    My friend Congressman Mr. Tonko took note of this positive 
executive action and decided it was worthwhile to codify the 
principles into law. Notably, he started drafting a bill 
several months prior to the 2016 election when there was every 
chance that there would be another similar Administration in 
January 2017.
    The Scientific Integrity Act is straightforward. It 
outlines prohibited conduct for employees of Federal agencies 
that conduct scientific research. This includes suppressing 
scientific findings or coercing others to suppress scientific 
findings. It defines the rights and responsibilities of Federal 
scientists in making public statements about their work to the 
media, the scientific community, and the public. It directs 
Federal agencies to develop, adopt, and enforce scientific 
integrity policies that meet a number of specified criteria. 
And it directs agencies to appoint a dedicated career 
scientific integrity officer. How about that for a job?
    H.R. 1709 does not make any instructions for any specific 
agency or call out any particular misdeed. It is an 
Administration-neutral and agency-neutral set of principles.
    So why do this? First, it's not just good government. It 
ensures transparency and accountability in government, which is 
part of our Constitutional responsibility as the U.S. Congress, 
and it ensures we are relying on facts and increasing evidence 
around tested hypotheses regarding our most complex and nuanced 
policy changes. We have seen this play out through history.
    Second, it protects Federal scientists, but it does not 
dictate science as law. There have been many publicized and an 
unknown number of unpublicized cases in which the basic 
principles of scientific integrity have been violated, and both 
Federal employees and the taxpaying public suffer the 
consequences. The people we represent here today in Congress 
rely on government agencies who are there to serve the public, 
to be able to do their job and establish trust, to keep people 
safe and healthy by using the best available data, most 
accurate data to inform their policies, regardless of politics.
    Today, our government, Federal agencies must run as 
effective organizations positioned for the most successful 
outcomes possible, whereas our taxpayers receive that precious 
but essential return on investment. Our biology, physics, and 
chemistry are governed by a set of natural laws. Our civil 
society is governed by a set of codified and recognized self-
evident laws described by the legends of our democracy. Today, 
we strive for neutral territory to legislate within this very 
chamber without the weight of dogma and ideology exclusively 
dictating our work. We strive to embrace a peer review of 
discovery and determination for new laws to exercise and lay 
out our future.
    As philosopher Baruch Spinoza, one of the early founders of 
the Enlightenment period, said, ``There are those who are 
governed by reason and they desire nothing for themselves which 
they do not also desire for the rest of humankind.''
    We have a phenomenal panel here today with diverse 
expertise and research experience and perspectives on this 
issue. I look forward to our engaged and essential discussion 
and hearing your thoughts on scientific integrity.
    [The prepared statement of Chairwoman Stevens follows:]

    Good morning and thank you to the witnesses for being here 
this morning to discuss policies and procedures governing 
scientific integrity at Federal agencies.
    Let me be clear among friends and witnesses. This is not a 
Democratic or Republican issue. It's not about one 
Administration or another. It is about ensuring public trust in 
the conduct, dissemination, and use of scientific research in 
the Federal government.
    An overview of recent history is essential.
    In 2010, then White House OSTP Director Dr. John Holdren 
issued a memorandum that laid out basic principles for the 
development and implementation of scientific integrity policies 
at all agencies. By the end of the Obama Administration, 24 
Federal agencies had published scientific integrity policies 
consistent with the intent of the memo.
    My friend Mr. Tonko took note of this positive executive 
action, and decided it was worthwhile to codify the principles 
in law. Notably, he started drafting a bill several months 
prior to the 2016 election, when there was every chance that 
there would be another Democratic administration in January 
2017.
    The Scientific Integrity Act is straightforward. It 
outlines prohibited conduct for employees of federal agencies 
that conduct scientific research. This includes suppressing 
scientific findings or coercing others to suppress scientific 
findings. It defines the rights and responsibilities of federal 
scientists in making public statements about their work to the 
media, the scientific community, and the public. It directs 
federal agencies to develop, adopt, and enforce scientific 
integrity policies that meet a number of specified criteria. 
And it directs agencies to appoint a dedicated career 
scientific integrity officer. H.R. 1709 does not make 
instructions for any specific agency or call out any particular 
misdeed; it is an Administration-neutral and Agency-neutral set 
of principles.
    So why do this? First, it's just good government. It 
ensures transparency and accountability in government, which is 
part of our Constitutional responsibility as the U.S. Congress; 
and ensures we are relying on facts and increasing evidence 
around tested hypotheses regarding our most complex and nuanced 
policy changes.
    Second, it protects Federal scientists, but does not 
dictate science as law. There have been many publicized and an 
unknown number of unpublicized cases in which the basic 
principles of scientific integrity have been violated, and both 
Federal employees and the taxpaying public suffer the 
consequences.
    The people we represent here today in Congress rely on 
government agencies who are there to serve the public to be 
able to do their job to keep people safe and healthy by using 
the best available data, most accurate data to inform their 
policies - regardless of politics.
    Today, in our government, federal agencies must run as 
effective organizations positioned for the most successful 
outcomes possible, whereas our taxpayers receive that precious 
but essential return on investment. Our biology, physics, and 
chemistry are governed by a set of natural laws. Our civil 
society is governed by a set of codified and recognized - self-
evident - laws scribed by the legends of our democracy. Today 
we strive for neutral territory to legislate within this very 
chamber without the weight of dogma and ideology exclusively 
dictating our work. We strive to embrace a peer review of 
discovery and determination for new laws to exercise and lay 
out our future.
    As Baruch Spinoza, one of the early philosophers of the 
Enlightenment, said, ``Those who are governed by reason desire 
nothing for themselves which they do not also desire for the 
rest of humankind.''
    We have an excellent panel today with diverse expertise and 
perspectives on this issue. I look forward to a spirited 
discussion and to hearing your thoughts on the Scientific 
Integrity Act.

    Chairwoman Stevens. Before I recognize my friend, Dr. Jim 
Baird, for his opening statement, I would like to present for 
the record a statement from the UAW, the United Auto Workers 
Union, in support of the Scientific Integrity Act.
    The Chair now recognizes Mr. Baird for his opening 
statement.
    Mr. Baird. Thank you, Chairwoman Stevens and Chairwoman 
Sherrill, for holding today's hearing.
    In science, carrying out our work with integrity is the 
bedrock principle. And to quote the National Academies' report 
on the responsible conduct of research, ``The public will 
support science only if it can trust the scientists and the 
institutions that conduct the research.''
    We must have rigorous policies on scientific integrity, 
research misconduct, conflict of interest, and data 
transparency. This instills public trust and confidence in 
taxpayer-funded research. Furthermore, all of us in this room 
agree the fundamental right of scientists to be able to 
conduct, publish, and speak freely on the findings of their 
research. It goes to the heart of who we are as Americans and 
the rights enshrined in the Bill of Rights.
    Federal agencies have policies and procedures in place to 
protect these rights. I look forward to hearing from the 
Government Accountability Office (GAO) about the results of 
their study on Federal science integrity policies and their 
recommendations for improvements.
    But I think some conflate the findings of scientific 
research with public policy decisions. I've done research, and, 
as a scientist, I was trained to look for the raw data, analyze 
it, and leave out my biases. In fact, one of the things you do 
in research is you use random numbers to assign treatments to 
various parts of that research, and so that's a way of removing 
your biases.
    Science is science, but politics, as all of us on this side 
of the aisle know, is more complicated. Two people may look at 
the same scientific data and relevant information and come up 
with two different policy conclusions. There's nothing 
inherently dishonest about that. In politics we have 
disagreements. We discuss, we debate, we negotiate, we vote, 
and in the end the voters decide what policies they want to 
support at the ballot box.
    I hope today's hearing will be a constructive discussion. 
It would be a disservice to the scientists who work in our 
Federal agencies to play politics with the issue of scientific 
integrity. You may disagree with the politics of the current 
Administration, but let's stick to the facts of what is 
happening with science in our Federal agencies, not rumor, not 
exaggeration.
    I'm very concerned about the process that led us to this 
hearing, which Mr. Norman will address further in his opening 
statement. The Research and Technology Subcommittee has had a 
good track record of bipartisan work, promoting American 
leadership in science and innovation. I hope and believe that 
will continue.
    Thank you for our witnesses for being here today, and I 
yield back.
    [The prepared statement of Mr. Baird follows:]

    Thank you, Chairwoman Stevens and Chairwoman Sherrill for 
holding today's hearing.
    In science, carrying out our work with integrity is a 
bedrock principle.
    To quote a National Academies report on the responsible 
conduct of research, ``The public will support science only if 
it can trust the scientists and institutions that conduct 
research.''
    We must have rigorous policies on scientific integrity, 
research misconduct, conflict of interest, and data 
transparency. This instills public trust and confidence in 
taxpayer-funded research.
    Furthermore, all of us in this room agree in the 
fundamental right of scientists to be able to conduct, publish 
and speak freely on the findings of their research. It goes to 
the heart of who we are as Americans and the rights enshrined 
in the Bill of Rights.
    Federal agencies have policies and procedures in place to 
protect these rights. I look forward to hearing from the 
Government Accountability Office (GAO) about the results of 
their study on federal science integrity policies, and their 
recommendations for improvements.
    But I think some conflate the findings of scientific 
research with public policy decisions.
    I've done research. As a scientist, I was trained to look 
at the raw data, analyze it, and leave out my biases.
    Science is science. But politics, as all of us on this side 
of the dais know, is more complicated. Two people may look at 
the same scientific data and relevant information and come to 
two totally different policy conclusions.
    There is nothing inherently dishonest about that. In 
politics we have disagreements. We discuss, we debate, we 
negotiate, we vote, and in the end, the voters decide whose 
policies they want to support at the ballot box.
    I hope today's hearing will be a constructive discussion.
    It would be a disservice to the scientists who work in our 
federal agencies to play politics with the issue of scientific 
integrity.
    You may disagree with the politics of the current 
Administration, but let's stick with the facts of what is 
happening with science at our federal agencies, not rumor and 
exaggeration.
    I am very concerned about the process that led up to this 
hearing, which Mr. Norman will address further in his opening 
statement.
    The Research & Technology Subcommittee has had a good track 
record of bipartisan work promoting American leadership in 
science and innovation. I hope and believe that will continue.
    Thank you to our witnesses for being here today. I yield 
back.

    Chairwoman Stevens. The Chair now recognizes the Chairwoman 
of the House Science Subcommittee on Investigations and 
Oversight, Ms. Sherrill, for an opening statement.
    Chairwoman Sherrill. Thank you so much, Chairwoman Stevens 
and Ranking Member Norman and Ranking Member Baird.
    When we talk about scientific integrity, it's all about 
fostering a culture of respect for science throughout all 
levels of government. Federal agencies need to listen to 
scientists and allow them to do their work free of political 
considerations. Agencies also need to appreciate the value of 
science in policymaking, and the leadership of an agency should 
never be hostile to its scientists or treat scientific findings 
as a threat.
    I will give an example that's important to this Committee. 
In March, I chaired a hearing about the IRIS (Integrated Risk 
Information System) program at the Environmental Protection 
Agency. We heard how EPA took steps last December to eliminate 
10 chemical assessments from the IRIS workflow, thus preventing 
the public from seeing the latest science on how these 
chemicals affect human health. We know that EPA's decision 
isn't about a lack of resources. In fact, the IRIS assessment 
of formaldehyde is already done.
    So this is exactly why Federal agencies need robust 
scientific integrity policies, and that's why I'm proud to be a 
cosponsor of H.R. 1709, and I thank Congressman Tonko for his 
leadership on this. And I yield the balance of my time to him 
to introduce the bill.
    [The prepared statement of Chairwoman Sherrill follows:]

    Thank you Chairwoman Stevens. It's a great pleasure to be 
here today at this joint subcommittee hearing. I'm pleased as 
always to see my colleagues on both sides of the aisle as we 
consider the very important issue of scientific integrity in 
government.
    When we talk about scientific integrity, we are talking to 
a large extent about rules and procedures. Federal agencies 
must have explicit rules in place to affirm that scientific 
research will be free of political interference and that 
academic honesty will not be punished by harassment or 
retaliation. They also need formal procedures in place for the 
fair, timely and transparent resolution of allegations when 
they are made. One of our tasks here today is to assess whether 
the scientific integrity policies currently used by executive 
branch agencies do enough to protect science and the public 
servants who conduct it.
    Rules and procedures, however, are only one part of the 
answer. It is equally important to foster a culture of respect 
for science throughout the government. Federal agencies need to 
listen to scientists and allow them to do their work unhindered 
by political considerations. They also need to appreciate the 
value of science in policymaking and actively incorporate 
scientific findings into the deliberative process. The 
leadership of an agency should never be hostile to its 
scientists or treat scientific findings as a threat. Any leader 
who would do so is merely revealing that their beliefs are 
determined by ideology rather than the facts. That kind of 
thinking is pernicious and does not serve the public.
    Let me talk about an example that's important to this 
Committee. In March, we held a hearing about the IRIS program 
at the Environmental Protection Agency. We heard how EPA took 
steps last December to eliminate important chemical assessments 
from the program's workflow - thus preventing the public from 
seeing the latest science on how exposures to these chemicals 
affect human health. We know that EPA's decision to sideline 
these studies is not about a lack of resources. In fact, we 
know that EPA's assessment of formaldehyde through the IRIS 
program is already done. The former EPA Administrator, Scott 
Pruitt, told a Senate Committee himself that the formaldehyde 
assessment was ready for ``imminent'' release way back in 
January 2018. This assessment is the culmination of countless 
hours of work from dedicated EPA scientists over more than a 
decade. Its findings would mean a lot for understanding the 
respiratory health and cancer risks of formaldehyde and help 
inform decision-making that will keep workers and children 
safe. But keeping the study out of the public eye apparently 
means a lot to special interests.
    If this episode at IRIS isn't political interference in 
science, I don't know what is. This kind of activity is exactly 
why robust scientific integrity policies are needed.
    And we should never lose sight of why scientific integrity 
is so important. America faces immense challenges today: 
Accelerating climate change, attacks on women's health, 
dangerous chemicals in our water and our workplaces, aging 
transportation networks, and so much more. We cannot adequately 
understand these threats - let alone address them - with 
anything less than the best possible science. We also need a 
government that communicates scientific information clearly and 
effectively to the American people. This nation has the best 
scientists in the world, and the ones that work with the 
federal government are working to help us overcome the greatest 
challenges of our time. When we allow federal scientists to do 
their jobs without interference, their efforts make the country 
stronger, safer and more prosperous.
    I'm proud to be a cosponsor of the Scientific Integrity 
Act. This bill will codify scientific integrity policies at 
federal agencies and strengthen them in crucial ways. It will 
guarantee that federal scientists can conduct research freely, 
present findings honestly, communicate information openly, and 
engage with the scientific community. It will also ensure that 
when scientific integrity violations do occur, federal 
scientists know their rights and can report the violations to 
designated officials who are empowered to help. If H.R. 1709 
becomes law, scientific integrity in the federal government 
will stand on a much firmer foundation. I want to thank 
Representative Tonko, Chairwoman Johnson and Chairwoman Stevens 
for their leadership on this issue.
    We have a distinguished panel for the hearing today, and I 
thank the witnesses sitting before us. The subject of this 
hearing impacts us all.
    Thank you and I yield back.

    Mr. Tonko. Thank you. I thank the gentlelady from New 
Jersey for yielding. And I thank Chairs Johnson and Stevens for 
today's hearing and for joining me as an original cosponsor 
introducing the Scientific Integrity Act. Thanks to Chairwoman 
Sherrill for your strong support of the bill and to the nearly 
200 Members who have supported this commonsense, good 
government legislation.
    I also want to thank my colleague and friend Dr. Baird for 
coming today with an open mind on the nonpartisan need for 
strong, consistent scientific integrity policies. Mr. Norman, I 
look forward to speaking with you more about this critical 
issue as well.
    Every time government scientific reports are delayed, 
distorted, or hidden, the American people pay the price in the 
form of lost rights and freedoms, lost wages to medical bills, 
burned or flooded homes, lost years from our lives, and the 
irreplaceable loss of loved ones. As an engineer with a deep 
respect for science, Federal scientific integrity standards 
have been a concern of mine for many years.
    Allowing political power or special interests to manipulate 
or suppress Federal science hurts and hurts all of us. It leads 
to dirtier air, unsafe water, toxic products on our shelves and 
chemicals in our homes and environment. And it has driven 
Federal inaction in response to the growing climate crisis.
    Scientific integrity is a longstanding concern that 
transcends any one party or political administration. In fact, 
I began working on the Scientific Integrity Act in the summer 
of 2016 when we had a Democratic Administration. The abuses 
directed by this President and his top officials have brought a 
new urgency to the issue, but the fact remains, whether a 
Democrat or a Republican sits in the Speaker's Chair or the 
Oval Office, we need strong scientific integrity policies.
    This bill, H.R. 1709, would do just that, insulating public 
scientific research and reports from the distorting influence 
of political and special interests by ensuring strong 
scientific integrity standards at America's science agencies.
    More than 20 Federal agencies have some form of a 
scientific integrity policy, but those policies are uneven in 
their enforcement and scope. As a result, vital information and 
scientific analysis falls between the cracks, especially now in 
an Administration that prizes appearances often at the expense 
of the facts.
    For that and other reasons, more than 60 organizations have 
sent a letter in support of Congress moving the Scientific 
Integrity Act forward. This letter, which includes signatures 
of scientists and government accountability groups such as 
Citizens for Responsibility and Ethics in Washington, 
environmental groups such as Defenders of Wildlife, women's 
health organizations such as the National Partnership for Women 
and Families, and unions such as SEIU (Service Employees 
International Union).
    Madam Chair, I ask that this letter be entered for the 
record.
    Science doesn't serve political power, it just tries to 
tell us the truth. And that is always worth protecting. I hope 
that, as a Committee, we can all work together to strengthen 
scientific integrity policies and ensure that we are upholding 
high scientific standards across all agencies, no matter who 
holds the reins of political power.
    Madam Chair I also request to enter a letter for the record 
from the Public Employees for Environmental Responsibility, or 
PEER, in support of the Scientific Integrity Act. PEER is a 
nonprofit group that works nationwide with government 
scientists, land managers, law enforcement agents, field 
specialists, and other leading environmental professionals.
    With that, I thank the Committee, Subcommittees for 
providing for this opportunity to discuss what I think is very 
key, critical legislation. I hope that we can move forward and 
show great respect and dignity toward our scientists who work 
within the Federal agencies conducting research paid for by 
Federal tax dollars.
    With that, I yield back.
    [The prepared statement of Mr. Tonko follows:]

    Thank you Chairs Johnson and Stevens for today's hearing 
and for joining me as two of the four original cosponsors 
introducing the Scientific Integrity Act! Thanks to Chairwoman 
Sherrill for your strong support of the Scientific Integrity 
Act and to the 200 members who have supported this commonsense, 
good government legislation.
    I also want to thank my colleague and friend Dr. Baird for 
coming today with an open mind on the nonpartisan need for 
strong, consistent scientific integrity policies. Mr. Norman, I 
look forward to speaking with you more about this critical 
issue as well.
    Every time government scientific reports are delayed, 
distorted or hidden, the American people pay the price in the 
form of lost rights and freedoms, lost wages to medical bills, 
burned or flooded homes, lost years from our lives and the 
irreplaceable loss of loves ones. As an engineer with a deep 
respect for science, federal scientific integrity standards 
have been a concern of mine for many years. Allowing political 
power or special interests to manipulate or suppress federal 
science hurts all of us. It leads to dirtier air, unsafe water, 
toxic products on our shelves and chemicals in our homes and 
environment. And it has driven federal inaction in response to 
the growing climate crisis.
    Scientific integrity is a longstanding concern that 
transcends any one party or political administration, but the 
abuses directed by this President and his top officials have 
brought a new urgency to the issue. Still, it must be said 
that, whether a Democrat or a Republican sits in the Speaker's 
chair or the Oval Office, we need strong scientific integrity 
policies.
    I began working on the Scientific Integrity Act in the 
summer of 2016 when we had a Democratic administration. And at 
that time, I believed that the next Administration would likely 
be a Democratic Administration as well. More than 20 federal 
agencies have introduced some form of a scientific integrity 
policy to create a firewall between science and the political 
and special interests that seek to influence, suppress or 
distort it. But those policies are uneven in their enforcement 
and scope. As a result, vital information and scientific 
analysis falls between the cracks-especially now in an 
administration that prizes appearances often at the expense of 
the facts.
    The Scientific Integrity Act, H.R. 1709, would protect 
public scientific research and reports from the distorting 
influence of political and special interests by ensuring strong 
scientific integrity standards at America's science agencies. 
The bill is supported by nearly 200 members. More than 60 
organizations sent a letter in support of Congress moving the 
Scientific Integrity Act forward. The list of organizations not 
only includes scientists but also government accountability 
groups such as Citizens for Responsibility and Ethics in 
Washington, environmental groups such as Defenders of Wildlife, 
women's health organizations such as the National Partnership 
for Women & Families, and unions such as SEIU. Madame Chair, I 
ask that this letter be entered for the record.
    Science doesn't serve political power, it just tries to 
tell us the truth. And that is always worth protecting. I hope 
that as a committee we can all work together to strengthen 
scientific integrity policies and ensure that we are upholding 
high scientific standards across all agencies, no matter who 
holds the reins of political power.
    Madame Chair I also request to enter for the record a 
letter from the Public Employees for Environmental 
Responsibility (PEER) in support of the Scientific Integrity 
Act. PEER is a nonprofit group that works nationwide with 
government scientists, land managers, law enforcement agents, 
field specialists and other leading environmental 
professionals.

    Chairwoman Stevens. Without objection, so ordered.
    The Chair now recognizes the Ranking Member of the 
Subcommittee on Investigations and Oversight, Mr. Norman, for 
an opening statement.
    Mr. Norman. Thank you, Chairwoman Stevens and Chairwoman 
Sherrill, for convening this meeting. And I want to thank each 
of our witnesses today. I appreciate the time that you've put 
in to come to Congress.
    We're here today to discuss the importance of scientific 
integrity policies within Federal agencies. The value of 
integrity and transparency in Federal science enterprise cannot 
be understated. Scientific findings are often relied upon by 
policymakers to make important decisions that affect the lives 
of millions of Americans. But to maintain the public trust, 
there must be a high degree of integrity and transparency in 
the scientific process.
    Under the direction of Congress and the White House Office 
of Science and Technology Policy, OSTP, in 2010 Federal science 
agencies were directed to develop policies that ensure a 
culture of scientific integrity, strengthen the credibility of 
government research, facilitate the flow of scientific and 
technological information, and to establish principles for 
conveying scientific and technological information to the 
public.
    According to the GAO, 24 Federal departments and agencies 
have developed scientific integrity policies in response to the 
2010 OSTP guidance. In April 2019, the GAO published a report 
evaluating these policies and their implementation across nine 
Federal agencies that conduct scientific research. I look 
forward to hearing more today about this report and GAO's 
report on this important topic. Thank you, Mr. Neumann, for 
being here.
    During today's discussion, however, we cannot lose sight of 
the distinction between science and policy. Science is used to 
answer questions relevant to policy, but policy is a decision 
or a commitment to a specified course of action which is 
ultimately a political question. We must ensure integrity in 
both scientific and political processes. I believe this means 
we should refrain from weaponizing science to score political 
points.
    Unfortunately, it seems that my Democratic colleagues are 
intent on politicizing scientific integrity, and the way this 
hearing was orchestrated is a perfect example of that. I'm 
disappointed in the way this entire process has been managed 
quite frankly. Committee staff were first notified about this 
hearing when they were copied on a witness invitation. There 
was no phone call, there was no email, there was zero 
conversation. There was no deliberation, at least no bipartisan 
deliberation.
    This invitation was to an official from the EPA, an agency 
that received not one single recommendation for action in GAO's 
report. In fact, of the 10 recommendations made by GAO for or 
directed to the Department of Energy, two were directed to NIST 
(National Institute of Standards and Technology), NSA (National 
Security Agency), and NOAA (National Oceanic and Atmospheric 
Administration) received one recommendation each. But none of 
these agencies were invited to testify about their scientific 
integrity policies.
    Instead, the majority sought to invite the EPA, presumably 
to haul them in for a partisan pummeling. The EPA even agreed 
to provide a senior official to testify, a respected scientist 
who oversees scientific integrity policies. But the majority 
rejected that witness. And it doesn't stop there. Legislation 
we are here to discuss has 188 cosponsors, all of which are 
Democrats. Perhaps that's because my colleagues across the 
aisle had zero interest in gaining bipartisan support. 
Fortunately, there's ample room for improving communications 
and deliberation moving forward.
    Since the majority failed to invite a single Ph.D. 
scientist, we invited a scientific expert to provide 
constructive feedback on the legislation. I look forward to 
hearing Dr. Pielke, your thoughtful recommendations.
    I'm hopeful that the tone of the remainder of today's 
hearing will be civil and that we can have a constructive 
dialog on how we can reaffirm our commitment to integrity and 
transparency within the Federal science enterprise.
    [The prepared statement of Mr. Norman follows:]

    Thank you, Chairwoman Stevens and Chairwoman Sherrill, for 
convening today's hearing.
    We are here to discuss the importance of scientific 
integrity policies within federal agencies. The value of 
integrity and transparency in federal science enterprise cannot 
be understated.
    Scientific findings are often relied upon by policymakers 
to make important decisions that affect the lives of millions 
of Americans.
    But to maintain the public's trust, there must be a high 
degree of integrity and transparency in the scientific process.
    Under the direction of Congress and the White House Office 
of Science and Technology Policy (OSTP), in 2010, Federal 
science agencies were directed to develop policies that ensure 
a culture of scientific integrity; strengthen the credibility 
of government research; facilitate the flow of scientific and 
technological information; and to establish principles for 
conveying scientific and technological information to the 
public.
    According to GAO, 24 federal departments and agencies have 
developed scientific integrity policies in response to the 2010 
OSTP guidance.
    In April 2019, GAO published a report evaluating these 
policies and their implementation across nine federal agencies 
that conduct scientific research.
    I look forward to hearing more today about this report and 
GAO's work on this important topic. Thank you, Mr. Neumann, for 
being here.
    During today's discussion, however, we cannot lose sight of 
the distinction between science and policy. Science is used to 
answer questions relevant to policy. But policy is a decision 
or a commitment to a specified course of action, which is 
ultimately a political question.
    We must ensure integrity in both scientific and political 
processes. I believe this means we should refrain from 
weaponizing science to score political points.
    Unfortunately, it seems that my Democratic colleagues are 
intent on politicizing scientific integrity, and the way this 
hearing was orchestrated is a perfect example.
    I am disappointed in the way this entire process has been 
managed. Committee staff were first notified about this hearing 
when they were copied on a witness invitation.
    There was no phone call. There was no email. There was no 
conversation. There was no deliberation, at least no 
``bipartisan'' deliberation.
    This invitation was to an official from the EPA, an agency 
that received not one single recommendation for action in GAO's 
report. In fact, of the 10 recommendations made by GAO, four 
were directed to the Department of Energy, two were directed to 
NIST, and NASA and NOAA received one recommendation each.
    But none of these agencies were invited to testify about 
their scientific integrity policies. Instead, the Majority 
sought to invite the EPA, presumably to haul them in for a 
partisan pummeling.
    The EPA even agreed to provide a senior official to 
testify, a respected scientist who oversees scientific 
integrity policies. But the Majority rejected that witness.
    And it doesn't stop there. The legislation we are here to 
discuss has 188 cosponsors, all of which are Democrats. Perhaps 
that's because my colleagues across the aisle had no interest 
in gaining bipartisan support.
    Fortunately, there is ample room for improving 
communication and deliberation moving forward.
    Since the Majority failed to invite a single PhD scientist, 
we invited a scientific expert to provide constructive feedback 
on the legislation. I look forward to hearing Dr. Pielke's 
thoughtful recommendations.
    I am hopeful that the tone of the remainder of today's 
hearing will be civil, and that we can have a constructive 
dialogue on how we can reaffirm our commitment to integrity and 
transparency within the federal science enterprise.
    I yield back the balance of my time.

    Mr. Norman. Madam Chair, at this time I would ask unanimous 
consent to enter into the record letters exchanged between the 
Science Committee and the Environmental Protection Agency 
regarding today's hearing.
    Chairwoman Stevens. So ordered.
    Mr. Norman. I yield back.
    Chairwoman Stevens. If there are Members who wish to submit 
additional opening statements, your statements will be added to 
the record at this point.
    [The prepared statement of Chairwoman Johnson follows:]

    Good morning to our witnesses and welcome to the hearing.
    I am proud to be an original cosponsor of the Scientific 
Integrity Act, and I commend Congressman Tonko for his hard 
work in preparing the bill.
    As I see it, scientific integrity consists of two major 
elements. The first is respect for the truth. Science does not 
have a political agenda. When science is done well, when 
trained professionals can follow the data and subject their 
findings to rigorous peer review, the information speaks for 
itself. The meaning of science-based decision-making is being 
informed by the best possible science and deciding what to do.
    The second is respect for scientists themselves. As I see 
it, a big part of scientific integrity is allowing the 
scientists who serve this country to conduct their work 
unimpeded by undue outside influence. It's about allowing them 
to speak freely in their capacity as experts with the American 
public and the media. It's about allowing them to serve on 
advisory boards, join scientific societies, and engage with the 
scientific community. Unfortunately, we know that federal 
agencies do not always make this possible for their scientists. 
Sometimes Congress throws up roadblocks for federal scientists, 
too, and we need to do better.
    On a related note, I want to share my disappointment about 
who is missing from our panel of witnesses today. The Committee 
invited Dr. Francesca Grifo, the Scientific Integrity Official 
for EPA, to testify. Of all the Scientific Integrity Officials 
across the two dozen or so agencies that conduct or oversee 
science, Dr. Grifo is arguably the most experienced, and EPA's 
Scientific Integrity policy is among the most robust. We were 
eager to hear from her about EPA's process for implementing 
their policy and handling staff issues, as well as best 
practices to consider.
    But EPA refused to make Dr. Grifo available and offered 
another official, the Principal Deputy Assistant Administrator 
for Science, in her place. While we appreciate this person's 
credentials and experience, she has never served as a 
scientific integrity official for a federal agency. She did not 
help draft the EPA Science Integrity Policy, and she has never 
personally adjudicated a formal complaint from a federal 
scientist. We wanted to hear from Dr. Grifo because she hears 
directly from EPA employees who have concerns, questions and 
disputes. A major purpose of this hearing is to understand the 
day-to-day experiences of a scientific integrity official. EPA 
did not explain to this Committee why it would not make Dr. 
Grifo available, but only stated in vague terms that they 
believed their alternate official would be ``adequate'' for 
today's meeting. As the Chairwoman of this Committee, I believe 
EPA's response to our invitation was not adequate, and I hope 
to hear from Dr. Grifo at a future date.
    Nevertheless, I know the panelists who are before us today 
are capable of assisting the Committee with their insights and 
experiences and I look forward to their testimony.
    I yield back to Chairwoman Stevens.

    Chairwoman Stevens. You know who didn't get a phone call? 
The people of Flint when their water was poisoned. You know who 
didn't get a phone call? The people of New Orleans when their 
city was flooding.
    So I'm really proud of our witnesses who made the time to 
come here today. I'm proud of our Committee's leadership and 
our outreach to many agencies. And in fact, we had a great 
outreach to the Environmental Protection Agency which we asked 
Ms. Francesca Grifo to serve as a witness here today. Ms. Grifo 
is a widely respected government employee in the scientific 
community as a longtime advocate for scientific integrity. And 
in fact she serves as the Environmental Protection Agency's 
Scientific Integrity Officer. She's one of our proud civil 
servants. And so that means she's not a political appointee or 
appointed by the Administration. She carries throughout each 
Administration, carrying this charge of scientific integrity 
forward. And her perspective would have been invaluable here 
today.
    Unfortunately, the EPA refused to allow Ms. Grifo to 
testify. Instead, the agency would only allow Dr.--or, excuse 
me, Ms. Jennifer Orme-Zavaleta to join us. And Ms. Zavaleta's 
role at the EPA is as a science advisor. So while we appreciate 
her talent, we know that her comments on scientific integrity 
would have fallen short, given that that is not her 
jurisdiction and her role.
    Mr. Tonko. Madam Chair?
    Chairwoman Stevens. Yes.
    Mr. Tonko. If I might add to your comment, I recently 
attended the public statement opportunity at the agency for 
this given reason, that they are usually highlighted as one of 
the best agencies if not the best with their scientific 
integrity panel. And so I wanted to make certain that we 
encouraged other agencies to follow that glowing example. So 
Ms. Grifo is very much respected, and she's held as an example 
of--and her team--as an example of what we would like to 
accomplish with this legislation.
    And also, I have reached out across the aisle many times 
over still hoping to get Republican support. We've asked many 
Members. So, Dr. Baird, I just wanted to encourage you again to 
take a good look at the legislation. And I appreciated the 
conversation we had and the fact that you, by your very resume, 
show great respect for science.
    So with that, I yield back.
    Chairwoman Stevens. Thank you.
    At this time I'd like to introduce our witnesses. Our first 
witness is Mr. John Neumann. Mr. Neumann is Managing Director 
in the Government Accountability Office's (GAO's) new Science, 
Technology Assessment, and Analytics team. Since 2013, he has 
led audits in the management and oversight of Federal research 
and development programs, protection of intellectual property, 
and Federal efforts to support innovation. Mr. Neumann received 
his B.A. in political science from the State University of New 
York at Stony Brook and holds an MBA from American University, 
as well as a J.D. from Georgetown University.
    Our next witness is Mr. Michael Halpern. Mr. Halpern is 
Deputy Director of the Center for Democracy and Science at the 
Union of Concerned Scientists (UCS). In this role, he works to 
ensure government decisions are fully informed by scientific 
information and that the public understands the scientific 
basis for those decisions. He has co-authored several reports 
and articles that detail solutions that would improve 
scientific integrity and has advised Federal agencies and 
departments on policies to promote scientific independence in 
the context of policymaking. He holds a B.A. in sociology and 
communication studies from Macalester College.
    After Mr. Halpern is Dr. Roger Pielke, Jr. Dr. Pielke is 
the Director of the Sports Governance Center and a Professor of 
Environmental Studies at the University of Colorado Boulder. We 
know you're all very active in Colorado, so, you know, a very 
healthy community out there. He has also served several terms 
as the Founding Director of Colorado's Center for Science and 
Technology Policy research. Dr. Pielke's research focuses on 
science, innovation, and politics in a number of areas. He 
holds degrees in mathematics, public policy, and political 
silence all from the University of Colorado.
    Our final witness is Mr. Joel Clement. Mr. Clement is 
currently a Senior Fellow at the Harvard Kennedy School's 
Belfer Center for Science and International Affairs. In this 
role, he works with a number of partners to improve the 
knowledge and tools necessary to reduce risk and improve 
resilience in the Arctic region. Prior to joining the Harvard 
Belfer Center, Mr. Clement was an executive for 7 years at the 
U.S. Department of the Interior. Before serving in the Federal 
Government, Mr. Clement was a Conservation Science Program 
Officer for a private foundation where he focused on climate 
change, adaptation strategies, and landscape-scale conservation 
efforts. He has published peer-reviewed articles on forest 
ecology and science policy linkages, as well as multiple 
Federal Government reports.
    As our witnesses should know, you will each have 5 minutes 
for your spoken testimony. Your written testimony will be 
included in the record for the hearing. When you have completed 
your spoken testimony, we will begin with questions. Each 
Member will have 5 minutes to question the panel.
    We will start with you, Mr. Neumann. You have 5 minutes.

                   TESTIMONY OF JOHN NEUMANN,

       MANAGING DIRECTOR, SCIENCE, TECHNOLOGY ASSESSMENT,

      AND ANALYTICS, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Neumann. Chairwoman Stevens, Chairwoman Sherrill, 
Ranking Member Baird, Ranking Member Norman, and Members of the 
Subcommittees, thank you for the opportunity to be here today 
to discuss our report on Federal agencies' implementation of 
scientific integrity policies.
    As you know, allegations about agency officials 
inappropriately influencing science have been reported in the 
Federal Government. To address this issue, Congress passed the 
America COMPETES Act (Creating Opportunities to Meaningfully 
Promote Excellence in Technology, Education, and Science), 
which required the Office of Science and Technology Policy to 
develop a set of scientific integrity principles, which was 
issued to agencies in 2010. These principles are intended to 
ensure the open communication of data and results from research 
conducted by Federal scientists and prevent the suppression or 
distortion of such research findings.
    My statement today summarizes the findings and 
recommendations from our April 2019 report on Federal 
scientific integrity policies. Specifically, I will highlight 
the key findings from two objectives of our report: The extent 
to which Federal agencies have taken actions to achieve the 
objectives of their scientific integrity policies, and the 
extent to which Federal agencies have procedures for 
identifying and addressing alleged violations of those 
policies.
    Our review focused on nine Federal agencies that conduct 
scientific research, employ Federal scientists, and were among 
the agencies with the greatest levels of funding for intramural 
research, that is research conducted by Federal agencies in 
their own facilities. These included the Agricultural Research 
Service at USDA (U.S. Department of Agriculture), EPA, FAA 
(Federal Aviation Administration), the Office of Fossil Energy 
at the Department of Energy, NIH (National Institutes of 
Health), NASA (National Aeronautics and Space Administration), 
NIST, NOAA, and the USGS (U.S. Geological Survey) at the 
Department of Interior (DOI).
    Our first finding was that the nine selected agencies had 
taken some actions to achieve the objectives of their 
scientific integrity policies, but several agencies had not 
taken actions in three areas we highlighted: Communicating 
scientific integrity policies to staff, providing oversight, 
and monitoring and evaluating performance of their policies.
    Specifically, while most agencies had taken actions to 
educate or train their staff on their scientific integrity 
policies, two agencies, the Department of Energy and NIST, had 
not. Also, the Department of Energy had not designated a 
scientific integrity official to oversee its policies. In 
addition, five agencies, the Department of Energy, FAA, NIST, 
NOAA, and USGS, had not taken actions to evaluate their 
policies to ensure that they were achieving their objectives.
    Our second finding was that two agencies, Department of 
Energy and NASA, did not have documented procedures for 
addressing alleged violations of their scientific integrity 
policies. Without such a process, these agencies have no 
assurance that staff know how to report allegations and that 
investigations will be conducted consistently.
    Based on these findings, we made a total of 10 
recommendations to six of the agencies in our review. These 
agencies were receptive to our recommendations, and we will 
continue to track the efforts to implement them.
    In closing, it's important to note that the integrity of 
federally funded science depends in part on agencies having 
sound scientific integrity policies, ensuring that the 
objectives of their policies are achieved and addressing 
alleged violations.
    This concludes my prepared statement. I'd be happy to 
respond to any questions you may have.
    [The prepared statement of Mr. Neumann follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
                  TESTIMONY OF MICHAEL HALPERN,

       DEPUTY DIRECTOR, CENTER FOR SCIENCE AND DEMOCRACY,

                  UNION OF CONCERNED SCIENTISTS

    Mr. Halpern. Good morning, and thank you, Chairwoman 
Stevens, Chairwoman Sherrill, Ranking Member Baird, and Ranking 
Member Norman, for holding this hearing today.
    I'm Michael Halpern. I'm the Deputy Director of the Center 
for Science and Democracy at the Union of Concerned Scientists. 
I have spent the last 15 years working at the intersection of 
science and policy and standing up for scientists and their 
work. And I'm really, really thrilled to be here today to talk 
about political interference in the work of Federal Government 
scientists and steps to prevent that type of misconduct. I hope 
that today will serve as an example to all that there can be a 
bipartisan commitment to promoting responsible conduct in 
Federal scientific agencies regarding the development and 
communication of scientific information.
    Federal Government experts provide data and analysis that 
helps us stop the Zika virus. They help neighborhoods deal with 
public health risks posed by nearby chemical plants. They help 
journalists and policymakers understand bioterrorism threats. 
Now, there is not Democratic science, there is not Republican 
science. There's just science. Decision-makers and the public 
want to hear directly from the experts, and they deserve that 
access. But too often policymakers want to keep scientists on a 
leash or, worse, change scientific practices or outcomes to 
support predetermined policy positions.
    Political appointees suppress scientific reports on 
chemical toxicity, order staff to soften conclusions on worker 
safety problems, unethically change testing protocols on lead 
exposure and other chemical exposure, and misrepresent 
scientists' work on reproductive health. In that kind of closed 
culture, scientists keep their heads down, and we are robbed of 
their expertise. This keeps valuable information from the 
public and makes it easier for politicians to avoid 
accountability for poor public health and environmental 
protection decisions.
    The consequences are real. During the George W. Bush 
Administration, government experts were ordered to change their 
testing procedures to suggest that children's lunchboxes with 
lead in them were safe. The Obama EPA watered down and changed 
a scientific assessment about the impacts of fracking on 
drinking water in a way that misled the public. And in the 
Trump Administration, assessments of PFAS chemicals were held 
up, scientists have been muzzled on climate change, and experts 
report high levels of censorship and self-censorship across 
issues and surveys.
    For the last 20 years, journalism associations complained 
consistently about access to Federal Government experts and 
asked for improvements. They were stonewalled then, and it's 
only getting worse. Recently, the U.S. Geological Survey began 
requiring scientists to ask for permission before speaking with 
a reporter. Now, USGS is not a regulatory agency. It doesn't do 
policy. Yet the desire to control the message on science is 
still present.
    Now, most Federal agencies, as we know, have developed 
scientific integrity policies over the last decade, but 
agencies vary widely in their ability and willingness to 
enforce and implement these policies. At a majority of agencies 
there's little training and few enforcement mechanisms. Without 
being in statute, the scientific integrity policies can improve 
agencies around the edges but lack authority and 
enforceability. Policies can be curtailed or eliminated at any 
moment.
    Now, ultimately we cannot depend on agencies to police 
themselves without additional direction and support. It's time 
to codify these scientific integrity standards. The Scientific 
Integrity Act creates transparency and accountability through 
clarity. The legislation would give scientists who work for the 
government and work for government agencies the right to share 
their research with the public, ensure that government 
communication of science is accurate, and protect science and 
policy decisions from political interference, not dictating the 
policy decisions but protecting the science within them.
    The bill empowers Federal employees also to share their 
expertise and opinions as informed experts in a personal 
capacity outside of their government jobs. And the bill 
prohibits any employee from censoring or manipulating 
scientific findings.
    It's certainly time for this kind of legislation to be 
considered. It's certainly important for us to determine that 
we can separate the science from the policy and that we need to 
make fully informed decisions based on that science. But the 
American people lose when we end up with manipulated or 
suppressed or distorted information. Thank you.
    [The prepared statement of Mr. Halpern follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Chairwoman Stevens. Dr. Pielke.

               TESTIMONY OF DR. ROGER PIELKE, JR.,

       DIRECTOR, SPORTS GOVERNANCE CENTER, AND PROFESSOR,

      ENVIRONMENTAL STUDIES PROGRAM, UNIVERSITY OF COLORADO

    Dr. Pielke. Thank you. And thanks to the two Subcommittees 
for the opportunity today.
    A long time ago, I worked for this Committee, for the 
Science Committee under George Brown in the red sweater, which 
led me to deeply appreciate the work that everyone does here, 
Members and staff.
    Scientific integrity policies are essentially the ground 
rules for evidence in the political process that the government 
agrees to follow. This includes elected and appointed officials 
and civil servants. Scientific integrity legislation is 
important and necessary. Careful attention is needed to ensure 
that such legislation integrates well with existing related 
policies.
    Under the George H.W. Bush Administration, controversies 
involving Federal science and scientists prompted the inclusion 
of a very short section in the 2007 America COMPETES Act. Under 
the Obama Administration, OSTP further developed guidelines for 
the implementation of scientific integrity policies.
    These worthwhile efforts to develop and implement such 
policies for Federal agencies have not been continued under 
OSTP under the Trump Administration. Such policies are 
important because science and matters of scientific integrity 
have become increasingly popular arenas for partisan battles. 
If there is one topic where bipartisanship should thrive, it is 
scientific integrity.
    However, these policies remain a work in progress. A 
December 2016 review of scientific integrity policies in 24 
Federal agencies conducted for OSTP found that the concept of 
scientific integrity was undefined by OSTP and in most agencies 
scientific integrity policies.
    As we've heard, a GAO review recently of nine Federal 
agencies found considerable variability in the implementation 
of scientific integrity policies. Thus, congressional 
legislation is presently needed to complete the task of 
developing scientific integrity policies for Federal agencies 
to place them explicitly under congressional oversight and to 
standardized definitions, policies, and procedures across 
Federal agencies, while recognizing also the need for 
flexibility in certain agency contexts.
    H.R. 1709 offers a good start, but it's not quite there 
yet. My written statement contains detailed comments on the 
bill.
    Now, the focus of scientific integrity policies has 
typically been on individual researchers and studies. But 
science best guides and informs policy when it's been assessed 
by expert advisory bodies that characterize the current state 
of knowledge on a particular topic or to present potential 
policy options, including perspectives on uncertainties, 
disagreements, and areas of ignorance.
    The volume of scientific production requires assessments to 
inform policy. Consider that, according to the National Science 
Foundation, the U.S. Federal Government scientists published 
almost 20,000 science and engineering articles in 2016, the 
most recent year data is available. And the vast majority of 
academic research is supported by Federal Government agencies. 
In 2016, this totaled more than 307,000 additional publications 
or about 840 per day. To communicate all Federal and federally 
supported research by agency press releases will require a 
press release every 90 seconds, 24 hours a day, 365 days a 
year. Federal agencies and universities thus face constant 
choices about which scientific articles to highlight for the 
media and the public. Of course, such choices are influenced by 
politics, including which studies support the agency's or 
Administration's policy goals, and so on.
    The political nature of the communication of research is 
further enhanced by today's partisan media landscape and 
political advocates looking to advance their causes by 
promoting favorable research results and often attacking those 
results perceived to be unfavorable. Scientific integrity 
process--policies can help to ensure that the research 
underlying a communication process retains its integrity, but 
they cannot remove the role of political considerations from 
the overall process of communication.
    Communicating science to the public, as important as it is, 
can never substitute for rigorous assessments. Thus, I strongly 
encourage Members of this Committee to consider directing 
legislative attention in support of enhancing scientific 
integrity in assessment and advisory bodies, including but not 
limited to those that fall under FACA (Federal Advisory 
Committee Act).
    Finally, good science and policy advice from experts also 
results from the upholding of scientific integrity by elected 
and appointed officials. Often, and rightly so, our attention 
is focused on the advice given by experts. However, in policy 
settings, what is just as important is relationship of 
policymakers to those experts. Elected officials or political 
appointees should not use their positions to go after 
individual scientists or studies. Such actions subtract from 
scientific integrity.
    The bottom line is that advisors advise, decisionmakers 
decide. Scientific integrity legislation can help create 
conditions where advisors can best fulfill their part of this 
important and essential relationship. Thank you.
    [The prepared statement of Dr. Pielke follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    Chairwoman Stevens. Mr. Clement.

                   TESTIMONY OF JOEL CLEMENT,

         ARCTIC INITIATIVE SENIOR FELLOW, BELFER CENTER

             FOR SCIENCE AND INTERNATIONAL AFFAIRS,

                     HARVARD KENNEDY SCHOOL

    Mr. Clement. Thank you, Chairwoman Stevens, Ranking Member 
Baird, Chairwoman Sherrill, Ranking Member Norman, and Full 
Committee Chairman Johnson, for providing me the opportunity to 
testify in support of scientific integrity here today.
    And I'm here presumably because of my tenure and role as a 
senior executive at the Interior Department for 7 years. As 
Director of the Office of Policy Analysis, it was my job to 
understand the most recent scientific and analytical 
information regarding matters that affected the mission of the 
agency and to communicate that information to agency 
leadership. In that role, I never imagined the possibility that 
agency leadership would not want to have the best information, 
that they would actively suppress scientific evidence. And 
unfortunately, that's exactly what we've seen happen during the 
Trump Administration.
    Right now, there are dozens of Alaska Native villages 
imperiled by the impacts of human-caused climate change, 
frontline American communities addressing dramatic impacts as 
we speak. These are not model projections. These are impacts 
happening before our eyes. Human-caused global warming is 
accelerating permafrost thaw and the loss of sea ice with dire 
implications for the rest of the planet. Most notably, parents 
and children and uncles are falling through unreliable ice and 
perishing. Villages are struggling to sustain a subsistence way 
of life while facing the existential stress of living in a 
village that could be--they're one storm away from being wiped 
off the face of the map.
    So this is the scientific and social reality that I was 
speaking about very publicly when then-Secretary of the 
Interior Ryan Zinke abruptly reassigned me to a position 
unrelated to my background and experience. I was one of dozens 
of senior executives who were reassigned that night in what the 
media described as a purge that sent a message to other career 
civil servants to keep their heads down on issues that run 
counter to the Trump Administration's anti-science and pro-
fossil-fuel rhetoric.
    So I became a public whistleblower and a few months later 
resigned. It was an agonizing decision to leave public service, 
but to this day, I still continue to receive emails and phone 
calls from former colleagues, Federal scientists and experts, 
many of whom I don't even know, thanking me for being their 
voice while their agency leadership silences them and ignores 
their expertise and undermines the mission of their agency.
    Federal scientists aren't asking for much. They know their 
work won't always influence policy. But what they do expect is 
the ability to conduct and communicate their research and 
findings without interference from politicians, to advance 
their careers with publications and presentations, to engage 
with peers both within and outside the Federal science 
enterprise, and to ensure that their findings are available to 
the American public that paid for that research. And, 
unfortunately, some agencies have had some difficulty assuring 
even these fundamental workplace conditions.
    The GAO audit that Mr. Neumann described, constrained as it 
was by the methodology, barely scratched the surface of the 
dysfunction. For example, that report indicated that all nine 
of the audited agencies had addressed the need to ensure a 
culture of scientific integrity. At Interior, agency scientists 
are self-censoring their reports and deleting the term climate 
change to avoid being targeted by political appointees. They're 
barred from speaking to reporters without advanced permission 
from the agency. They face new barriers to attending the 
professional conferences that are part of the job. And their 
work is being incompletely communicated to the public, if at 
all.
    At the EPA, which wasn't part of the GAO audit and the 
Agriculture Department, political staff have been withholding 
important scientific reports and findings from the public. 
These conditions do not reflect a culture of scientific 
integrity but a culture of fear, censorship, and suppression 
that is keeping incredibly capable Federal scientists from 
sharing important information with the public or participating 
as professionals in their field. Americans are not getting 
their money's worth as long as these conditions persist.
    So H.R. 1709 provides a number of measures that would begin 
to address this problem. It is a necessary but not sufficient 
step for establishing a culture of scientific integrity. The 
success of these measures depends on an agency's willingness to 
address integrity and ethics issues more generally. As we've 
seen, this has been a challenge for the Trump Administration, 
so to gain traction, these scientific integrity measures must 
be buttressed by broader ethics integrity and anticorruption 
measures, some of which the House included in the--in H.R. 1, 
the For the People Act of 2019.
    So, in conclusion, we face a global climate crisis, and 
it's putting Americans and the American economy at risk. 
Instead of sidelining science, now is the time to invest more 
heavily in research and scientists, restore public trust in the 
scientific enterprise that has made America such a great 
country, and ensure that our political leaders respect the 
links between science, good policy, and well-being.
    H.R. 1709 is a great first step and could lead to a 
snowball effect of smart, informed policy measures to protect 
and enhance the Federal science enterprise, but it will require 
commensurate measures regarding general ethics and integrity 
across Federal agencies. Thanks again for the opportunity to 
testify.
    [The prepared statement of Mr. Clement follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
      
    Chairwoman Stevens. Thank you. At this point, we will begin 
our first round of questions. And the Chair will recognize 
herself for 5 minutes.
    Mr. Neumann, what role do Federal agencies have in crafting 
law?
    Mr. Neumann. Well, agencies are to implement the law that's 
set through policies.
    Chairwoman Stevens. So they implement the laws as they've 
been created. What role do agencies have in using data to 
interpret scientific findings? There was a Science magazine 
article in May of this year that talked about scientific 
integrity and the role that data plays in determining 
scientific findings and outcomes. Based on your studies, what 
have you seen with the role that data is playing in our Federal 
agencies?
    Mr. Neumann. Well, I think that's a really hard question to 
answer specific to scientific integrity. You know, it's--the 
work that we did was focused on how agencies' policies were 
being implemented. Generally, an agency is responsible for 
collecting data and ensuring that data is reliable, and GAO has 
a whole body of work looking at how data is often unreliable in 
the Federal agencies and making recommendations to improve the 
data.
    Chairwoman Stevens. Yes. And opening it up to the panel, 
are there ways in which we are ignoring data that might be 
before us in various agencies that could be unearthed or 
utilized for scientific findings or things that might be of 
utility for the public? Mr. Clement?
    Mr. Clement. Well, certainly, there are lots of examples of 
those. I have actually a whole list here that I can submit for 
the record if you'd like.
    Chairwoman Stevens. That would be great.
    Mr. Clement. I'm happy to do that. There are many studies 
out of DOI. In particular, you know, this Administration has 
canceled them, but there was a study into the rules that would 
be necessary to protect the health and safety of offshore oil 
rig workers, for example. That study was canceled right before 
canceling those measures and regulations that would protect the 
health and safety of oil rig workers. There was also a study 
underway at the National Academy to look into the health 
impacts of mountaintop removal coal mining on people who live 
in that region. That study was canceled right before the Trump 
Administration canceled the moratorium on leasing for coal on 
public lands. So there are lots of studies like that. I can 
provide a list. But there have been many instances where other 
studies have been withheld.
    Chairwoman Stevens. Well, we think of Flint, Michigan, and 
the responsibility of our Federal agencies. The Scientific 
Integrity Act applies to Federal agencies and not State 
agencies. And we look at the role that the Environmental 
Protection Agency played in not identifying or unearthing the 
data that would have shown that there was something wrong with 
the water in Flint.
    And so the question and the reason why it's complicated, 
Mr. Neumann, is because these are complex topics. And the role 
that our Federal agencies have to inform and to provide 
information remains paramount.
    How did we pass smoking ban acts in the 20th century? We 
found the data. We found the data. But it wasn't the Federal 
agencies that implemented the law. It was public sentiment that 
determined their outcomes.
    I don't know if Mr. Halpern has anything more to add here 
in terms of the data conversation, but we right now, in the 
21st century, have access to more bits and pieces of 
information than ever before. What are we missing?
    Mr. Halpern. So, certainly, I mean, we need access to that 
data, and we need access to the people that can interpret that 
data. And we see a lot of environmental problems that are 
breaking where communities are desperate for information about 
what kinds of threats they face either--whether it's with PFAS 
chemicals where scientists at the EPA are supposed to provide 
guidance to----
    Chairwoman Stevens. And is there opportunity for peer 
review?
    Mr. Halpern. Can you clarify the----
    Chairwoman Stevens. When our scientists at the EPA identify 
something like PFAS, which thank you for bringing that up. 
That's a big issue for all of us in Michigan. We have the most 
identified PFAS sites. But do we just take that as exclusive 
information? Does it get peer-reviewed? Does it get reviewed by 
other experts? Is there a chance for us to, you know, get a 
second opinion?
    Mr. Halpern. Yes, so, you know, that kind of peer review 
happens within agencies----
    Chairwoman Stevens. Fabulous.
    Mr. Halpern [continuing]. And one challenge is that a lot 
of the time that information then gets submitted to the Office 
of Management and Budget (OMB), at which point OMB can 
challenge those findings shielded from public view. And so one 
of the--one of the challenges that we have seen with regard to 
peer-reviewed science that comes out of agencies, whether it's 
ATSDR (Agency for Toxic Substances and Disease Registry) or EPA 
or elsewhere is that the White House can hold up studies 
indefinitely if they don't like the results and want to keep it 
down. And that's just over the long--you know, the problems 
that we have to address over the long term.
    I remember a few years ago in West Virginia, there was a 
chemical spill that contaminated the water of 300,000 people, 
and the people were desperate for information about whether the 
water was safe to drink, whether the water was safe to bathe 
in. And there wasn't necessarily any specific suppression that 
was going on, but because scientists who worked for EPA didn't 
know the line to go to, they didn't know what they were able to 
talk about, even with the scientific integrity in place--the 
policies in place, they did not feel comfortable sharing what--
both what was known and what was not known about the chemical 
to keep people safe that it took days for information to come 
out. And then the EPA ended up saying, well, maybe, as a 
precautionary member--thing, pregnant women should not drink 
this water when they had been drinking it for days. And so you 
want access to information. You want transparency.
    Chairwoman Stevens. Thank you. I now recognize Mr. Baird 
for 5 minutes of questions.
    Mr. Baird. Thank you, Madam Chair.
    You know, as a scientist, I recognize that if you're even 
trying to replicate a study exactly, you could, because of 
factors being slightly different, come to a different 
conclusion. And so I just want to make us recognize that that 
is a factor in doing research.
    But, Dr. Pielke, in 2017, the National Academies' report on 
``Fostering Integrity in Research'' recommended that the 
science community should put more focus on detrimental research 
practices, including failure to share the data and misleading 
use of the statistics and abusive supervision. How should the 
Federal agencies address the broad range of detrimental 
research practices as part of the scientific community?
    Dr. Pielke. Yes, the National Academies' study, ``Fostering 
Integrity in Research'' focused on research misconduct, which 
is very well-understood. There's clear policies put in place 
across the Federal agencies. But detrimental research 
practices, failure to provide data, p-hacking, other examples 
of dodgy research practices often fly under the radar. I think 
it's essential to recognize that not only are the highline 
fabrication, fraud, plagiarism issues in science but practices 
that lead to inconsistent or unreliable scientific results.
    It would be important for the Federal agencies to come up 
with policies and procedures to deal with detrimental research 
practices. And as we just heard, most significant there is a 
failure to release data that accompanies peer-reviewed or 
Federal studies such that other independent researchers can 
replicate or attempt to replicate those results. That's 
important. It's down in the weeds a little bit more wonky, but 
I would argue just as important as the high-level issues of 
scientific integrity.
    Mr. Baird. Thank you. Mr. Neumann, do you have any thoughts 
in that regard?
    Mr. Neumann. Well, the--some of the agencies we looked at 
included research misconduct as part of their scientific 
integrity policies. Others treated that separately. But there 
is clear guidance from OSTP I think back in 2000 that lays out 
the process for dealing with research misconduct. So it's a 
subset related to scientific integrity, but it's not what we 
focused on in our report. We're looking more at the suppression 
of science or the--how researchers were being influenced or 
censored.
    Mr. Baird. Thank you. And, Dr. Pielke, back to you again. 
The EPA Science Integrity Office recently held a stakeholder 
meeting. According to the press reports at that meeting the EPA 
Chief Science Officer said that many inquiries and complaints 
were instances of employees confusing science and policy. She 
is quoted as describing the complaints as ``my science says 
this and the policy ended up over there.'' How should we 
implement science integrity procedures that help scientists 
understand this difference?
    Dr. Pielke. Well, as someone who's run a program at the 
University of Colorado training Ph.D. scientists and engineers 
to understand the policy process, it is absolutely essential to 
provide training and understanding that science does not 
dictate policy results. Science informs, it can help to shape 
understanding of policy options, but it is a--I think in my 
field in academia a professional minefield to think that your 
expertise leads to knowledge that then compels a particular 
course of action.
    As you have said in the opening statement, there's 
different interpretations about the significance of science, 
what it means for different courses of action, and I think this 
is part of becoming an expert--a government expert as a 
scientist, understanding the clear differentiation between what 
decisionmakers do and how they use evidence, scientific 
integrity, and then the role played by those people who produce 
that evidence and science to inform the political process.
    Mr. Baird. Thank you. In your observation of other science 
agencies did you notice any of the others who do a particularly 
good job with educating employees on scientific integrity? And 
did you identify any rules of thumb that might want to see 
agencies follow in educating their staff and maintaining open 
lines of communication? Thirty-three seconds.
    Mr. Neumann. Yes, seven of the nine agencies we looked at 
it have--did take steps to educate their staff, including 
having required training, mandatory training or handbooks, and 
so those are a variety of practices. But there were two 
agencies that did not have any sort of process or activities to 
educate staff, just had their policies on their website. So 
that's why we believe there should be some educating either 
through training or other means of the staff so that everyone 
is clear on what the policies are, which is--I think it goes to 
the other point you're making that it's really important that 
if there is a disagreement on a scientific integrity issue, it 
should be able to be investigated, you know, through a process 
that's known to staff and that can be adjudicated fairly. And I 
think if that's transparent, then we can be more certain that 
the process is working.
    Mr. Baird. Thank you, and I'm out of time. I yield back.
    Chairwoman Stevens. At this time the Chair would like to 
recognize our Chairwoman of the Science Committee, Ms. Johnson, 
for 5 minutes of questions.
    Chairwoman Johnson. Thank you very much, Madam Chair. And 
let me say I'm delighted to have the witnesses here. And I'm 
also proud to be an original cosponsor of the Scientific 
Integrity Act. And I really commend Congressman Tonko for his 
hard work in preparing the bill.
    As I said, scientific integrity consists of two major 
elements. The first is respect for the truth. Science does not 
have a political agenda. When science is well done, when 
trained professionals can follow the data and subject their 
findings to rigorous peer review, the information speaks for 
itself.
    The second aspect for scientists themselves, as I said, a 
big part of the scientific integrity is allowing scientists who 
serve this country to conduct their work and unimpeded by undue 
outside influence. It's about allowing them to speak freely in 
their capacity as experts and with the American public and the 
media. It's about allowing them to serve on advisory boards, 
join scientific societies, and engage in the scientific 
community.
    Unfortunately, we know that Federal agencies do not always 
make this possible for their scientists. Sometimes, Congress 
throws up roadblocks for Federal scientists as well. We really 
need to do better.
    So on a related note, I want to share my disappointment 
about who is missing from our panel of witnesses today. The 
Committee invited Dr. Francesca Grifo at the Scientific 
Integrity Office of EPA to testify. Of all the scientific 
integrity officials across the 2 dozen or so agencies that 
conduct oversight of science, Dr. Grifo is arguably the most 
experienced and EPA's scientific integrity policies among the 
most robust. We were eager to hear from her about EPA's process 
for implementing their policy and handling staff issues, as 
well as best practices to consider. But EPA refused to make her 
available today, and hopefully, we can have her come later.
    The EPA did not explain to this Committee why it would not 
make her available but only stated in vague terms that they 
believe the alternative official would be adequate for today's 
meeting.
    As the Chairwoman of this Committee, I believe EPA's 
response to our invitation was not adequate, and I hope to hear 
from her soon.
    Nevertheless, I know the panelists who are here before us 
today are capable of assisting the Committee in their insights 
and experiences, and I look forward to having some questions 
answered.
    My first question is, how would codifying scientific 
integrity protections in the Scientific Integrity Act 
strengthen the rights of Federal scientists and enable greater 
transparency and accountability for Federal agencies?
    And then second, we have a current scientific integrity 
group of policies even as they remain in effect proven unable 
to counter the Trump Administration's manipulation and 
oppression of science.
    So I'm asking Mr. Halpern, Mr. Clement, would you two 
comment on that?
    Mr. Halpern. Yes, thank you, Chair Johnson, for your 
question and for being here today.
    It's essential to codify these policies precisely because 
they are vulnerable to repeal, they are vulnerable to being cut 
back at any moment. Any agency at any point, as we've seen with 
the U.S. Geological Survey and others, can introduce policies 
that compromise the scientific integrity policies themselves. 
And so the scientific integrity officers at various agencies 
who I speak to regularly have to know how far they can push 
before there's going to be backlash from the agency. So 
codifying this in law, making sure that we have guaranteed 
protections for scientists to be able to share their research, 
and for policies to be in place to adjudicate when there is 
political interference in the scientific process is essential.
    Chairwoman Johnson. Thank you.
    Mr. Clement. Thanks for your question. And you're spot on. 
This is a big concern. And during my deliberations after my 
reassignment, I didn't look to the scientific integrity policy 
at Interior to help me out. And that's because it was in the 
face of hostile leadership at the agency. And so I think it is 
absolutely essential to codify this stuff and give it some 
statutory heft. That would have allowed me to use some language 
in my whistleblower complaint, for example, that reflected 
scientific integrity and hopefully to provide some enforcement 
mechanisms that would be effective and useful in the face of 
that type of hostile leadership approach to science.
    So certainly this would have made a big difference for me 
but also for all those many, many Federal scientists who are 
holding back because, right now, I think it's safe to say there 
probably haven't been a whole lot of scientific integrity 
complaints at Interior in the last couple years because no one 
dares raise their head above the parapet at the moment because 
of the hostile leadership situation.
    Chairwoman Johnson. Thank you very much.
    Mr. Halpern. Yes, and we've found that a minority of 
scientists were--in surveys that we did of scientists at 
Federal agencies were--felt confident in bringing concerns 
forward at the Department of Interior and other agencies.
    Chairwoman Johnson. Thank you very much. My time is 
expired.
    Chairwoman Stevens. Thank you, Madam Chair. And at this 
time I'd like to recognize Mr. Norman for 5 minutes of 
questioning.
    Mr. Norman. Thank you, Chairwoman Stevens.
    Mr. Neumann, we've heard a lot in the statements this week 
about scientific integrity at EPA. The EPA was part of your 
review, is that right?
    Mr. Neumann. Yes, that's correct.
    Mr. Norman. You made 10 recommendations for 6 agencies and 
yet no recommendations for the EPA. What did you find when you 
did your review?
    Mr. Neumann. Sure. So the way we approached this is we're 
looking at what activities agencies took to implement their 
scientific integrity policies. We didn't assess how effective 
they were. We put that back on the agencies. Are they--do they 
have things in place to monitor and evaluate those policies? 
Are they educating their staff? Do they have a process for 
addressing alleged violations? So EPA met all of those criteria 
in the policy, so that our focus is--was pointed or our 
methodology was focused on how agencies were taking action to 
implement that. That doesn't mean that an agency like EPA won't 
have violations of those policies. In fact, we did note in our 
report that there were several violations. But it's important 
that the staff feel comfortable reporting alleged violations so 
they can be thoroughly vetted and determine what the--you know, 
whether or not the violation occurred.
    Mr. Norman. OK. And also, Mr. Neumann, this Committee has 
also conducted oversight on research misconduct. Do agencies 
define scientific integrity to include research misconduct?
    Mr. Neumann. Some did, some didn't. Some included those in 
the policy. There's clear guidance from OSTP from back in 2000 
on research misconduct, and so some agencies treated that 
separately. Others incorporated it into their overall 
scientific integrity policies. It's related, but every agency 
approached that a little differently.
    Mr. Norman. OK. Dr. Pielke, how would you define scientific 
integrity?
    Dr. Pielke. Yes, scientific integrity necessarily is going 
to require a broad definition, and it basically refers to 
respect for the processes of science, the underlying data, and 
the ability to communicate that research freely. The devil is 
always going to be in the details of how you turn a very broad 
definition, which I think is understood, it's characterized in 
the National Academy of Sciences, understood in the scientific 
community. But going from a broad definition to something, as 
we have just heard, that can be implemented consistently across 
agencies is where the challenge is.
    Mr. Norman. So it would include research misconduct?
    Dr. Pielke. Yes, any definition of scientific integrity is 
going to have to be, at a minimum, harmonized with existing 
policies and procedures on research misconduct. Obviously, 
conducting research with integrity would necessarily mean not 
engaging in research misconduct, so this is one of the 
critiques I have of the existing bill is it's not quite in 
harmony yet with existing policies and procedures across the 
Federal Government for research misconduct.
    Mr. Norman. All right. And so in your written testimony, 
you stated that obtaining science advice and policy advice 
require different processes and different types of expertise 
and public engagement. You pointed out that both rely on 
expertise and legitimized by public trust and concluded that 
both advisory processes should be conducted with scientific 
integrity. Why do you think it's important that both science 
advice and policy advice be conducted with scientific 
integrity?
    Dr. Pielke. So, typically, scientific advice deals with 
questions that can be answered empirically with the tools of 
science. How how many prairie dogs are in Colorado, for 
example. Policy advice involves questions of what do you do? 
How do we manage prairie dogs? What are our options? Both sets 
require relying on empirical information collected with 
integrity, but in the former what you're doing is answering a 
direct question posed by a policymaker with the tools of 
science. The second one you're going to want to involve 
stakeholders, you're going to want to involve members of the 
public, and you want to talk about--if you do option A, here's 
what you get. If you do option B, here's what you get. They're 
different processes. Both are advisory processes, and both 
depend on science conducted with integrity beneath them.
    Mr. Norman. So what recommendations would you have for how 
science integrity principles, how you would incorporate those 
into your policy advice processes?
    Dr. Pielke. Yes, so I think the--one key distinction is to 
recognize that the charge that's given to scientific advisors 
is just as important as the advice that they produce. So, as 
policymakers, appointed officials, you guys have an obligation 
to be very clear in what it is you want from your advisors. A 
lot of times what happens is a scientist is brought, perhaps, 
before a congressional Committee and Members already know the 
answer, they know the policy they want, and they want support 
for it. That's fine. That's how politics works.
    But in a situation where you want scientific advice, it's 
very important to go to FACA committees, National Academy of 
Sciences, impanel a special committee to provide that advice 
that you want if it is indeed scientific advice. And if you 
want options, what can we do, how do we deal with the problem, 
how do we make the water cleaner in Flint, Michigan, then 
explicitly say we want options. Then we can do a much better 
job serving what you need and then produce that information 
with integrity.
    Mr. Norman. Thank you so much. I yield back.
    Chairwoman Stevens. Thank you, Mr. Norman. And I'll say 
certainly not having any process recommendations for the EPA's 
scientific integrity would have really made for a great witness 
testimony. And certainly with the number of complaints that 
are--that were coming in.
    But at this time, you know, we're going to recognize the 
man of the hour, Mr. Tonko, for 5 minutes of questioning. Thank 
you.
    Mr. Tonko. Thank you, Chairwoman Stevens. And again, thank 
you for the hearing. And thank you to all of our witnesses. Mr. 
Halpern, Mr. Clement, and Dr. Pielke, thank you for addressing 
the need for scientific integrity legislation. And, Mr. 
Neumann, thank you for detailing the need to strengthen 
scientific integrity policies.
    Mr. Clement, what drove you to apply your science policy 
experience to serving in government? Was it your desire for 
personal wealth and glory?
    Mr. Clement. America loves their Federal bureaucrats.
    Mr. Tonko. Yes, they do.
    Mr. Clement. I always say that you can throw your ideas 
over the castle wall all day long, but there is no--and you 
just don't know whether they're being picked up. And when 
you're inside the castle having an opportunity to influence 
policy and management, it's an incredible honor and extremely 
gratifying professionally. Public service far exceeded my 
expectations both in terms of impact and access and my role in 
policymaking. So it has been a--it was a great honor.
    Mr. Tonko. Thank you. And what are the tangible changes 
inside our Federal agencies when politics gets put before 
science?
    Mr. Clement. Well, unfortunately, politics comes before 
science quite a lot. But when science is suppressed or 
dismissed, then you're leaving your best player on the 
sidelines. You know, I would love it if every policymaker 
thought of science as their north star the way that I do, but 
my hope is that it's at least part of the constellation of 
information that they use when they're making their decisions. 
But when that's not the case, when it's dismissed or 
suppressed, then the American people suffer.
    Mr. Tonko. And how might this impact the everyday American 
experience?
    Mr. Clement. Dirtier air and dirtier water. You know, right 
now, we're suffering through a global climate crisis that is 
not just putting Americans but also the American economy in 
peril right now, so there are lots of ways, more toxic 
environments and so on, where health and safety is being 
impacted.
    Mr. Tonko. Thank you. And, Mr. Halpern, do breaches of 
scientific integrity expose the American people to danger, 
whether undermining public health or allowing toxic chemicals 
in our air and water? And, if so, can you give some specific 
examples?
    Mr. Halpern. Yes. In all kinds of ways we see that 
happening. And it's--you know, we hear a lot about kind of 
environmental-related abuses of science, but I think that you 
see this across different agencies.
    So one example, the Department of Labor proposed allowing 
restaurant employers to control how employees' tips are 
distributed. And an analysis of that proposal by the Department 
of Labor economists found that this would cause a loss of 
billions of dollars and essentially wage theft from the 
employees. And in putting forward a proposal, the Department 
of--to do this, the Department of Labor suppressed that 
analysis. And so when people were making comments on that 
particular rule, they were deprived of that information in 
order to be able to make informed comments.
    The--under the Obama Administration, the White House Office 
of Management and Budget removed language from a proposal by 
the FDA (Food and Drug Administration) to control tobacco by, 
quote, ``describing how the rules would keep thousands of 
people from taking up cigar smoking'' and removing that 
language from the FDA's proposal.
    And so we see lots of examples where people directly 
benefit from good science-based policymaking where information 
is stripped from the public view in order to justify a 
scientific--or a policy decision. I don't think any of us think 
that science should be policy prescriptive, and that's why the 
Scientific Integrity Act is agnostic on those topics. We just 
want to be able to have access to the best available scientific 
information.
    Mr. Tonko. So it's apparent that no matter what 
Administration, there's a benefit that comes by tightening up 
and statutorily imposing the integrity overviews that these 
agencies.
    Exposure to the chemicals we call PFAS, including PFOA, is 
linked to adverse reproductive health outcomes, including 
decreased fertility, pregnancy-induced hypertension, and 
preeclampsia. Last year, the Trump Administration intervened to 
block publication of a toxicological profile for PFAS. The 
report was eventually released following significant public and 
bipartisan congressional pressure, but the incident raises 
alarming questions.
    Mr. Halpern, would the Scientific Integrity Act help 
prevent suppression of this kind of life-changing, public 
health information?
    Mr. Halpern. Absolutely. And it was heartening to me to see 
a bipartisan group of Congress step forward and demand that 
this kind of information be released. But the Scientific 
Integrity Act does mandate specific policies for clearance of 
publications. I'll note that, at the EPA, we're still waiting 
for the formaldehyde assessment to come out many months later. 
An agency where there were no problems, as GAO said, with 
regard to what the policy says, but in terms of its actual 
impact on the ability of agency to get out scientific documents 
on time we find it to be pretty lacking.
    Mr. Tonko. Thank you very much. And, Madam Chair, I yield 
back.
    Chairwoman Stevens. Thank you. And now the Chair recognizes 
Dr. Marshall for 5 minutes of questioning. Thank you.
    Mr. Marshall. Yes, thank you, Madam Chair. I'll start with 
Mr. Neumann. Mr. Neumann, how long have you been in this 
current role then? Did you perform similar reviews of these 
agencies with the prior Administration?
    Mr. Neumann. We didn't look specifically at this issue, but 
I've been leading science and technology performance audits for 
the last 6 years.
    Mr. Marshall. OK. You made a recommendation about NASA to 
develop documented procedures for identifying and addressing 
alleged violations of its scientific integrity policy. Can you 
describe what you found at NASA and how they responded to your 
recommendation, please?
    Mr. Neumann. Certainly. When we looked at these agencies, 
we asked, you know, what procedures they had in place for 
addressing violations, and NASA did not have anything 
specifically laid out for scientific integrity policy 
violations. They did point to other mechanisms that officials 
could--or rather staff could use to report alleged violations 
such as going to the IG (inspector general) or reporting things 
to their supervisor. But that would not allow for a transparent 
and consistent process in accordance with the scientific 
integrity policies, and that's why we recommended that they 
establish that.
    Mr. Marshall. OK. Thank you. Dr. Pielke, you're the only 
practicing scientist on the panel, which surprised me. Your 
work was targeted by Members of Congress who did not like the 
results of your research. What impact did that have on your 
work, and how did Members of Congress getting involved in 
criticizing science harm the science and policy divide?
    Dr. Pielke. Yes, thank you. I think anytime you do high-
profile work that's influential and, you know, Members of 
Congress pay attention to it, you become a target of interest 
groups and so on. I was surprised that in 2014 first John 
Holdren, who was then-President Obama's Science Advisor, put a 
6-page screed about me on the White House website. That'll get 
people's attention. And then a year later a Member of Congress 
opened an investigation of me and my research accusing me of 
taking money under the table from fossil fuel companies.
    I don't think my career will ever recover from those 
events. It is extremely punitive. In this world of social media 
where people know you only from what they read, they don't read 
your research or see your views, it can be incredibly damaging. 
And so I have come out as a strong advocate for academic 
researchers, Federal Government researchers to be left to call 
it like they see it. And if someone in a powerful political 
appointment or a Member of Congress doesn't like it, call them 
here and ask them questions. Any question you want about my 
research, people can ask. But the minute that it becomes 
character assassination, I think the entire base of our ability 
to rely on science is at threat.
    Mr. Marshall. Wow.
    Mr. Halpern. May I support that?
    Mr. Marshall. Sure.
    Mr. Halpern. Because, you know, I do think that it's--this 
is--when scientists see things happen to other scientists, they 
notice, and they see when their peers are called before--when 
their peers are attacked or when their peers are unjustly 
vilified publicly. And so I think it is important for us to 
look in the aggregate and look at what opportunities we're 
missing in terms of what scientists are willing to say 
publicly.
    And we know that a lot of people within Federal agencies 
across Administrations see it when their peers are called out 
for speaking truth to power and sharing information, and they 
keep their heads down as well. And that's--that robs us all of 
access to that kind of expertise.
    Mr. Marshall. Yes, thank you. I'll go back to Mr. Neumann. 
You examined the USGS, part of the Department of Interior, as 
part of your review, and made one recommendation. Can you 
discuss how the Department of Interior was to work with on that 
study, your findings, and how the agency is responding, please?
    Mr. Neumann. Yes. We certainly had cooperation from the 
agency, and they shared, you know, their processes and policies 
and activities they were undertaking. And we did find that they 
could do a better job of monitoring and evaluating the policies 
to ensure that the scientific integrity policies are effective, 
so that's something that other agencies are doing periodically 
to kind of assess is this really helping, you know, ensure a 
culture of scientific integrity. And so we made that 
recommendation.
    Mr. Marshall. OK. Thank you. Last question back to Dr. 
Pielke. You've written that the idea of the scientific 
consensus is often misunderstood. And certainly as a practicing 
physician, trying to sort through the thousands of studies and 
figure out, well, when we build consensus is a big deal, it 
usually takes years and decades. What do you need to understand 
about consensus in science, and what are the implications for 
scientific integrity policies?
    Dr. Pielke. Yes, the single most important thing I think 
for people to understand about the notion of scientific 
consensus, it's not an agreement of everyone on one thing. A 
scientific consensus reflects a perspective on the distribution 
of views in a community. This is why I recommend the importance 
of scientific assessment processes. Academics, scientists are 
strong-willed people, they have strong views----
    Mr. Marshall. Of course.
    Dr. Pielke [continuing]. And you will find outliers on 
either side and you--sometimes, if we're lucky, we'll find a 
central tendency. But the role of assessments is to 
characterize the full distribution of those views. And that 
full distribution is the consensus. And if it has a central 
tendency, great, and if it doesn't, we want to know that, too. 
It's just not one single answer.
    Mr. Marshall. Very well said. Thank you, Chairwoman, and I 
yield back.
    Chairwoman Stevens. In 1881, President Garfield from the 
OKest State of Ohio passed away. And he passed away because of 
a gunshot that he could have recovered from, but he died of 
sepsis because those who were caring for him and trying to 
remove the bullet weren't washing his hands, 1881.
    Now, in the late 1860s Dr. Lister beseeched his colleagues 
to apply some of these discoveries to antisepsis in their 
operating rooms. It just didn't make it through Pasteur and 
Robert Koch, who were scientifically demonstrating the germ 
theory.
    In 1887, the National Institute of Health was created. 
Imagine if we had access to that information. Imagine if our 
Congress had access to that information. We could have saved a 
President's life.
    I'm going to yield to Mr. Beyer, recognize Mr. Beyer for 5 
minutes of questioning now from the great State of Virginia.
    Mr. Beyer. Thank you. Madam Chair, thank you very much. And 
thank you for bringing up President James Garfield. He was 
Williams College's only President and only lived about 90 days. 
And I highly recommend Destiny of the Republic, which argues 
that he was probably the most intelligent President we ever had 
so----
    Chairwoman Stevens. By Candice Millard, who's coming to see 
us----
    Mr. Beyer. Oh, good.
    Chairwoman Stevens [continuing]. In September.
    Mr. Beyer. Excellent. And I really want to thank my good 
friend Paul Tonko for years of leadership putting this 
together. It's 3-1/2, 4 years, so that's really good work. I'm 
glad you have so many cosponsors.
    And to my friends on the other side, to Mr. Baird who said 
at the beginning let's not play politics with the issue of 
scientific integrity. I think that's exactly what we're here 
for, that politics intervening with scientific integrity is bad 
whether it comes from the right or from the left, and that's 
why this bill makes so much sense is to--you know, we pointed 
out I think in one of the UCS about how Kathy Sibelius when she 
was head of HHS (Department of Health & Human Services) ordered 
the FDA Commissioner to reject an application on emergency 
contraception and many other issues on both sides. So this is 
not partisan.
    And I would really encourage and ask again my Republican 
friends including Mr. Norman from South Carolina and Dr. 
Marshall and others to consider signing onto the Tonko 
legislation, and let's invite every Republican on the Committee 
to do that. And if you can't, please tell us why you can't, and 
what the specific objection is to it because I think this is 
something that should unite us as we move forward.
    I am concerned, too, about the Union of Concerned 
Scientists' survey that had 50 percent across all agencies 
either agreed or strongly agreed that political considerations 
undermine science-based policymaking, 81 percent at the EPA, 76 
percent at the National Park Service.
    I'm in business, and when data is really good for me, when 
it tells me we're going to sell more cars, I always cut it in 
half and then see whether I'd make the same decision. Even if 
you cut these numbers that half, 40 percent for the EPA, 38 
percent for the National Park Service, that's a real, real 
concern.
    So, Mr. Clement, I'm so thrilled to see a forest canopy 
ecologist. You're the first one ever. And since I've always 
wanted to live in a treehouse, it would be fun to talk to you 
more about it. But you've left government after 7 years. Do you 
feel the scientific integrity concerns and the fear of 
harassment and retaliation are driving Federal scientists out?
    Mr. Clement. You know, it's hard----
    Mr. Beyer. Or discouraging people from coming in?
    Mr. Clement. I think we're going to--we're seeing a lot of 
scientists leave. There's a bit of a brain drain I think 
because of disappointment about how science is being treated in 
the Federal science enterprise. More worrisome I think is how 
are we going to repopulate this science enterprise? How are we 
going to attract good scientists into Federal science if it's 
seen as a place where politics can interfere not just with the 
use and policy of science but in--with--but they can be 
suppressed and actually their careers can be impacted by not 
being able to go to conferences and not being able to present 
or publish their research.
    Mr. Beyer. OK. Thank you. Mr. Halpern, we've seen lots of 
reports of brain drain at agencies. I've got more Federal 
employees than any congressional district. Do you see the brain 
drain as a scientific integrity issue?
    Mr. Halpern. I see it as a scientific integrity issue for 
sure. We need to be able to attract the best and brightest 
minds to Federal service, not to--you know, as Mr. Tonko 
suggested earlier, get rich doing Federal work but to 
contribute mightily to public understanding of various 
environmental and public health threats.
    The work that Federal Government science agencies do is 
work that no other State agency or company is equipped to do, 
that's evaluating public health threats, environmental threats, 
helping us understand where to make investments, how to protect 
workers, and all kinds of other opportunities to improve 
everyone's quality of life. And so the importance of having the 
best scientists in these positions cannot be overstated.
    Mr. Beyer. Dr. Pielke, I only have 40 seconds left, but how 
have you recovered, attempted to recover? Is there a path back 
after, you know, your scientific credibility was questioned, 
your scientific integrity?
    Dr. Pielke. I have become outrageously public in the sense 
that I put all of my data, all my research, all my opinions, 
who I vote for, everything out in public on Twitter, on blogs 
to try to let people who I--know who I am so there's no 
ambiguity, my funding. Even so, it's enormously punitive to 
have the White House Science Advisor single you out as someone 
who's a quote/unquote bad guy.
    So this is something that we need to pay more attention to 
on both sides. And I have colleagues who have been attacked 
from the other side. And if you want to remove someone from 
public discussions, there are some people who have that power. 
But I'm here today, so obviously I haven't gone away 
completely.
    Mr. Beyer. Welcome back.
    Dr. Pielke. Yes, thank you.
    Mr. Beyer. Madam Chair, I yield back.
    Chairwoman Stevens. We're certainly all about those in the 
Executive Office upholding and recognizing truth and calling 
out untruths when they see it, so thank you for that great and 
important point.
    It's also we, in the Science Committee and Subcommittee for 
Research and Tech, had a hearing on election security and 
around this point about social media and negative infiltrations 
because we have had those. We had foreign intervention of 
adversaries into our election and in other ways. So truth 
indicators remain important.
    At this time I'm going to recognize Dr. Foster for 5 
minutes of questioning.
    Mr. Foster. Thank you, Madam Chair. And thank you to our 
witnesses. Actually, I'd like to start by thanking specifically 
Mr. Neumann and the GAO for the quality report you made on this 
subject. In a moment--or an hour of insomnia I actually read 
it. And I was just so happy to find voices we can trust. That 
is absolutely crucial. And it comes up again and again.
    I was discussing actually this morning with Ernie Moniz 
about how much he--during the Iran nuclear negotiations how 
much he depended on the scientific advice from the national 
laboratories on what the Iranians could do, how long it would 
take them, what we could detect, what we couldn't. You know, 
and these are detailed scientific questions.
    And then, as a Member of Congress, when I was, you know, 
trying to understand if I would vote for the Iran nuclear 
negotiation deal or not, you know, I had to go to those same 
sources and ask them the same detailed scientific question. And 
if I suspected that I was going to get a political spin on 
this, it would have been a lot tougher. And so we just depend.
    Earlier this week I was actually discussing with Francis 
Collins, the head of the NIH, he is not subject to this 
advisory committee directive that prohibits people from getting 
grants from the agency from being on advisory boards. And he is 
very grateful for it. He says they acknowledge conflicts of 
interest--it's a real problem--and they manage them. And I 
think that, you know, we're never going to escape conflicts of 
interest in those--I mean, you know, very often scientific 
fields have very small number of experts. And if you start 
booting off everyone with any expertise off your advisory 
panels, you know, it's just not going to work. And I think you 
just have to acknowledge and manage those conflicts of 
interest. And there are ways of doing it.
    And I think that on both sides of the aisle we view the 
NIH, for example, as a fully functional scientific bureaucracy 
if you will. And we have to make sure that same confidence 
occurs in all Federal agencies. And it comes up also locally, 
you know, and with the population.
    And in my district, there's a big issue with ethylene 
oxide, which is an identified carcinogen. And the question is 
what is a safe level there. And the Environmental Protection 
Agency, you know, came in, you know, shortly after the 
announcement that there were some anomalous emissions, and the 
difficulty is they brought in a political appointee with a 
background in home construction to talk about the scientific 
issues of what a safe level of exposure of ethylene oxide is, 
which is not satisfactory to anyone, including the people that 
are really looking for strong and valid scientific advice. And 
so this is just crucial.
    And, you know, when you see, you know, the USDA, for 
example, apparently suppressing, you know, scientific advice 
on--indicating climate change, you know, for what are 
apparently political reasons, then it causes you to distrust 
everything the agency does. And so you don't need many bad 
actions to just contaminate the whole operation.
    And so, let's see, I guess maybe, Mr. Halpern, one of the 
things that I struggle with is, you know, there is always in 
science statistical uncertainty in any conclusion or just 
other, you know, systematic uncertainties. And so I struggle 
with, you know, people wanted politics always to say this is 
the answer, period, full stop, whereas the scientist always 
says, well, it appears the probability is very high that this 
or that may be the case. How do you deal with that? Do you have 
any advice on how to do that and not make it basically, you 
know, contaminating the public's view of science in general?
    Mr. Halpern. Well, first of all, we don't want to make it a 
game of telephone where the uncertainty is communicated by 
scientists to political appointees and then to the American 
people. And ethylene oxide is certainly a very complex topic 
where you do want to hear--you do want the lines of 
communication to be clear, and you do want to hear directly 
from the experts. And so I think a lot of the time policymakers 
exploit scientific uncertainty as a justification either to 
take action or not to take action, that we don't know anything. 
Therefore, we can't do anything. And certainly a non-decision 
is a decision either to move forward with a public protection 
or not with a public protection. And so I think the Scientific 
Integrity Act is here to ensure that that communication is 
clear, that scientists are able to share that publicly.
    And I think, you know, one of the things we have seen with 
the GAO report is--and I do want to underscore is the fact that 
they did not measure whether or not the policies were 
effective. They said that these--that they've implemented these 
particular words in their policy, and that they've taken steps 
to train scientists on it. But is it actually effective? Does 
it actually make a difference? Does it actually allow and 
empower scientists to come and talk about what the--what they 
know and what they don't know? And we find in a lot of 
different cases but that's not the case.
    Mr. Foster. Well, thank you. And it looks like I'm out of 
time here. I just wanted to thank, you know, everyone one of 
our witnesses here for engaging on this subject. There's really 
nothing more important to the health of our democracy, so thank 
you. I yield back.
    Chairwoman Stevens. At this time the Chair would like to 
recognize Mr. Norman from South Carolina for 1 minute. And just 
a reminder, I do have the gavel, sir.
    Mr. Norman. OK. I wanted to respond to Congressman Beyer. I 
think that's the way you get things done is to look at the 
bills and come to an agreement. And I think that's the best 
advice I've heard particularly in light of the charade that 
went on in the House yesterday. It's a welcome relief to 
actually get down to facts. And each of the panelists, I like 
what I've heard as far as, you know, let the facts lead you to 
the results, not vice versa.
    I'm from the private sector. If I'm going to build you a 
house, I'll tell you what I can do and what I can't do and let 
the facts rule everything on it as long as I reveal it. So 
thank you for coming. Chairwoman Stevens, if you would relay 
that to Congressman Beyer, and I appreciate him doing that. I 
yield back.
    Chairwoman Stevens. And at this time I'd like to recognize 
Ms. Wexton from the great State of Virginia for 5 minutes of 
questioning.
    Ms. Wexton. Thank you, Madam Chair. And it's actually the 
great Commonwealth of Virginia, but----
    Chairwoman Stevens. Thank you. So noted.
    Ms. Wexton. Thank you for yielding, Madam Chair, and thank 
you to the witnesses for appearing today.
    I also want to thank Mr. Tonko for his leadership on this 
issue and for introducing this fantastic bill, which I strongly 
support.
    One area that continues to be harmed by disregard for 
science in the current Administration is reproductive health, 
especially when it comes to women. And women are left to deal 
with the consequences of this every day, which includes often 
the inability to make our own healthcare decisions.
    Madam Chair, I have a letter here from the Jacobs Institute 
of Women's Health at George Washington University that 
highlights just a few examples of actions taken by this 
Administration to use misleading or junk science--and I'll use 
quotes around science--when it comes to policy decisions 
relating to women's health. And, Madam Chair, I ask for 
unanimous consent to enter this letter into the record.
    Chairwoman Stevens. Without objection, so ordered.
    Ms. Wexton. Thank you. Now, one of the examples that this 
letter discusses is HHS' 2018 rule that allowed more employers 
and universities to exclude coverage of contraceptives in their 
health plans. In justification of this rule, HHS misrepresented 
decades of research on the efficacy of contraceptives, claimed 
greater health risks than actually exist, and cited cherry-
picked studies of poor scientific quality. To make a direct 
quote, HHS argued that the body of evidence shows that, quote, 
``There is complexity and uncertainty in the relationship 
between contraceptive use and unintended pregnancy.''
    So HHS is suggesting that the relationship between birth 
control and pregnancy is uncertain, and that is astonishing to 
me. Of course, there's always more that science can tell about 
the exact margins of error and around the rate of effectiveness 
of various contraceptive methods and user error and things like 
that, but I hope we can all agree that it's ridiculous for HHS 
to be saying that there's an uncertain link between 
contraceptive use and unintended pregnancy.
    Mr. Halpern, I understand that the Union of Concerned 
Scientists submitted a comment opposing this rollback of 
contraceptive coverage on the basis that it undermines science 
and public trust in the agency. Can you talk about the negative 
impacts of HHS misrepresenting science in decisionmaking like 
this?
    Mr. Halpern. Yes. So there--thank you for that question. I 
think, you know, there's really nothing that's more important 
to people than to be able to make informed healthcare and 
personal health choices.
    You're right that the impact of political interference in 
science is real and that it does tend to impact women and 
communities of color more than--and low-income communities more 
than other communities just because people being exposed to 
more environmental contaminants.
    We all rely on the Federal Government to help us evaluate 
what types of drugs are effective, what types of information 
allows us to make informed reproductive health choices as well, 
and it's important for public trust for agencies like Health 
and Human Services to represent science fairly and accurately.
    The Scientific Integrity Act under consideration today 
isn't going to determine what decision that the Health and 
Human Services Department makes on these kinds of topics, but 
it would require them to show their work. It would require them 
to--or provide more impetus for people who do research, if 
their work is misrepresented, to file complaints, to correct 
the record, and to ensure that the public actually understands 
the justification for a specific policy decision.
    Science is a political football. Everybody wants science to 
be on their side, and there's a tendency by all kinds of 
political actors to manipulate or suppress it or misrepresent 
it if it doesn't fit the predetermined policies that they want 
to put forward, and that's what we need to guard against.
    Ms. Wexton. Thank you. And science is something that 
depends on peer-reviewed and clear--you know, clear studies. 
And I like that you say that it would require that they have to 
show their work because then people can see what is being 
depended upon. Thank you very much. And I will yield back at 
this time.
    Chairwoman Stevens. Thank you to the gentlelady from the 
phenomenal Commonwealth of Virginia.
    We found ourselves a juicer, so we're doing a second round 
of questions. And I'm going to recognize my colleague Mr. Tonko 
for another 5 minutes of questioning to our incredible panel.
    Mr. Tonko. Thank you, Chairwoman.
    And in these partisan times it can be easy to dismiss any 
call for accountability or transparency as a political attack, 
in this case, on the Trump Administration currently is serving. 
So, Mr. Halpern, why do you see this legislation as something 
that transcends political Administrations?
    Mr. Halpern. Well, certainly, we've seen and been able to 
document examples of political interference in science dating 
back to President Eisenhower. Now, not all Administrations are 
created equal. We certainly have more problems in some years 
than others. With George H.W. Bush we saw relatively few 
challenges to science-based policymaking. With his son, it 
ramped up quite a bit.
    So I could spend until Friday giving examples of different 
ways in which science has been sidelined over the past, you 
know, several years dating back to 9/11 when the EPA told 
emergency responders that the air was safe and told the public 
that the air around Ground Zero was safe when it was not, when 
the Department of--when the Department of Interior had 
political appointees rewrite scientific documents to preclude 
the listing of endangered species under the Endangered Species 
Act, when the Obama Administration softened the conclusions of 
scientists related to the impact of fracking on groundwater and 
drinking water.
    We face enormous public health and environmental 
challenges. We need access to good science to make informed 
decisions, and it is important to recognize that because 
science--everyone wants science to be supportive of the 
policies that they want to put forward, there's a tendency to 
try to fit the science into the box that supports the policy.
    Mr. Tonko. OK. Thank you. Does anyone else on the panel 
want to respond to that?
    If not, let me just indicate we learned from GAO's report 
that all 24 agencies have SI (scientific integrity) policies in 
response to the 2010 OSTP memo. A handful of them have--as 
agencies have a dedicated full-time scientific integrity 
officer, too, and a fairly robust written policy. Mr. Halpern, 
what would the value of the policy changes in H.R. 1709 be for 
these top-performing agencies?
    Mr. Halpern. So these agencies are top-performing on paper, 
but when it comes to actually protecting the rights and 
responsibilities of Federal scientists and Federal employees, 
they end up falling short. We even saw yesterday in this very 
Committee when Deborah Swackhamer said--was talking about how 
she had been asked to change her testimony by a high-ranking 
EPA--or White House official, that she refused to do so. And it 
was asked whether or not the Inspector General had looked into 
this problem, and the Inspector General said they hadn't or 
that said later to the press that they hadn't because it wasn't 
a criminal offense. And so there really are few mechanisms that 
are actually effective to deal with these kinds of abuses of 
science.
    We've had 10 years for these scientific integrity policies 
to be implemented. We see uneven implementation at agencies. 
And even at those places like the EPA, which have put in 
significant resources into training employees, into making the 
scientific integrity officer available to people, we still have 
problems.
    I think that it's also important to note that the one place 
in which we have seen a really critical role for scientific 
integrity officers is in dealing with informal complaints and 
stopping complaints before they become crises.
    Mr. Tonko. So if there's some sort of disagreement or 
whatever within agencies, can agencies actually eliminate the 
SI office----
    Mr. Halpern. That could happen at any time.
    Mr. Tonko. So what you're saying is that if the EPA, for 
instance, decided to rescind the SI policy or water it so as to 
make it impotent and fire the SIO tomorrow, there's nothing 
preventing them from doing that?
    Mr. Halpern. There's nothing presenting them from 
rescinding the policy and likely reassigning the scientific 
integrity officer to other duties, which is why it makes it 
more difficult for them to be fully independent and to take 
these investigations to their full----
    Mr. Tonko. And, Mr. Clement, do you have any comments 
regarding that?
    Mr. Clement. Yes, that's one of the reasons why I think a 
lot of us did not rely upon the current policies in--once the 
transition to the Trump Administration took place. It's not a 
place you want to put your trust and raise your flag if you 
think you'll have hostile treatment from agency leadership. So 
extremely important to add heft, I think, statutory heft to the 
scientific integrity.
    Mr. Tonko. Well, I think any such bold steps would not go 
unnoticed by the press or this Committee, but that, in and of 
itself, remains very troubling. And with that, I yield back, 
Madam Chair.
    Chairwoman Stevens. The Chair would now like to recognize 
Mr. Cohen for 5 minutes of questioning.
    Mr. Cohen. Thank you, Madam Chair.
    Before I begin my questions, I want to submit a document 
for the record from the Society of Professional Journalists. 
The society supports the need for scientific experts within the 
government to communicate more freely with reporters, which is 
something the Scientific Integrity Act upholds. So, without 
objection?
    Chairwoman Stevens. Without objection, so ordered.
    Mr. Cohen. Thank you.
    Mr. Clement, thank you for your work over the years and 
your belief and respect for science. What did your work at the 
Department of Interior entail prior to Mr. Trump's regime?
    Mr. Clement. Well, my office covered those issues that cut 
across the many bureau missions at the agency, so issues like 
climate change, invasive species, Arctic issues, and economic 
analysis. Mostly my time was focused on the impacts of climate 
change upon the missions of the bureaus.
    Mr. Cohen. And you worked with scientists and understood 
their reports and relayed those to folks at the Department of 
the Interior, is that correct?
    Mr. Clement. That's correct.
    Mr. Cohen. From your research and what you learned while 
you were there, what are the dangers to Native Alaskans due to 
climate change?
    Mr. Clement. Well, they already face right now risks with 
unstable and unpredictable ice for transportation and hunting, 
but I think most striking is that there are--as indicated by 
the GAO of 10 years ago, there are more than 30 villages that 
face--that are imminently threatened by the impacts of climate 
change, and they need to be relocated.
    Mr. Cohen. Because what will happen to those villages?
    Mr. Clement. Well, with the lack of sea ice setting up in 
the fall and the thawing permafrost beneath their feet, one 
storm can erode meters and meters of land at a time. But these 
villages are on strips, either peninsulas or islands like the 
barrier islands of North Carolina, only they're no longer 
frozen in place. So one storm can over top these islands and 
put a lot of people in danger.
    Mr. Cohen. The 90 degrees the other day in--was it in 
Anchorage?
    Mr. Clement. Yes, it's uncanny and bizarre what--how warm 
it is in Alaska right now.
    Mr. Cohen. Do you suspect that was caused by man, climate 
change caused by man or was that just an act of God?
    Mr. Clement. Well, the temperature on any given day is 
weather, right, but we certainly have seen trends that would 
support the likelihood of those kinds of heatwaves taking place 
in Alaska. Yes.
    Mr. Cohen. What happened to you and your colleagues 
following Ryan Zinke's horse ride to the Interior Department 
and taking over as the chief cowboy?
    Mr. Clement. Well, you know, when the Secretary is sworn 
in, he has to wait 120 days before he can make any personnel 
decisions about senior executives. When--as soon as it was 
legally permissible, he--we received notices late on a Thursday 
night reassigning us and explaining why. Mine--to give a sense 
of the depth of the charade, mine was explained as where--you 
have economists on your staff. Therefore, you must know about 
accounting, and therefore, we're going to move you to the 
accounting office that collects royalty checks from the fossil 
fuel industry. That's why we're going to do this.
    Mr. Cohen. And was that right after the 120 days had lapsed 
or right after you testified to the U.N.?
    Mr. Clement. It was a week after I had testified at the 
U.N. It was actually 110 days after his swearing-in, but they 
just said this is going to happen in 10 days, yes. It was about 
a week after I testified at the U.N.
    Mr. Cohen. So it was a confluence of two reasons to act. 
Yes. And you were reassigned why do you think?
    Mr. Clement. Well, I was reassigned in order to get me to 
quit. You know, it was----
    Mr. Cohen. And basically hush you up?
    Mr. Clement. Exactly. I mean, Zinke--Secretary Zinke the 
very next week testified to Congress that he intended to use 
reassignments as a way to trim the DOI workforce by 4,000 
people. And reassignments don't trim the workforce unless you 
do so as a way to coerce a resignation, which is unlawful, so 
that was pretty clear to us why.
    Mr. Cohen. Did Mr. Zinke ever make any statements that you 
can recall about science and climate change?
    Mr. Clement. You know, and I--he made some statements 
during his confirmation hearing that seemed to support the 
notion of climate change. He didn't really put his--all his 
cards on the table, however.
    Mr. Cohen. Since your departure, have you seen any other 
efforts at the Department to interfere with scientific 
conclusions?
    Mr. Clement. Oh, many of them. I have a list here actually 
that I can submit for the record. But there have been many 
instances----
    Mr. Cohen. Can we have that submitted for the record? 
Without objection, so done. Done. Thank you.
    Chairwoman Stevens. So ordered.
    Mr. Clement. I will add the one instance was Secretary 
Zinke created a political review process for all the scientific 
grants over $50,000. He had this led by an old football buddy 
of his, and it's pretty clear that this very nontransparent 
approach not only bottlenecked all the grantmaking and research 
had to be canceled, but it was obvious that you could certainly 
pick and choose those studies that you might like to fund and 
those you would not.
    Mr. Cohen. Have international relationships been affected 
by the Administration's attack on science?
    Mr. Clement. Well, I work in the Arctic context. The Arctic 
Council, those are the eight Arctic countries that are very 
alarmed by climate change in the Arctic. It's a major driver up 
there. And the U.S. has gone from first to worst in terms of 
these issues. And I think this came to a head in May when 
Secretary Pompeo, Secretary of State Pompeo, met with the other 
seven ministers, foreign ministers from the other countries of 
the Arctic. Every 2 years they sign a ministerial declaration 
saying here are our priorities and agenda for the coming 2 
years. For the first time ever, the Arctic Council ministers 
did not sign a ministerial declaration because Secretary Pompeo 
would not allow language about climate change to be included in 
that declaration. So it was a very embarrassing diplomatic 
incident.
    Mr. Cohen. Thank you for your service and for your courage. 
I yield back the balance.
    Mr. Clement. Thank you, sir.
    Chairwoman Stevens. Thank you indeed. And the Chair at this 
point would like to recognize Ms. Bonamici for 5 minutes of 
questioning.
    Ms. Bonamici. Thank you very much. Thanks to the Chairs and 
the Ranking Members, thank you to all the witnesses. I've been 
on the Science Committee my entire time in Congress, and we 
know that peer-reviewed, evidence-based science can and should 
support and inform public policies, but unfortunately, we've 
seen suppression, censorship, manipulation of science in this 
Administration, and there are countless examples of undermining 
scientific integrity
    I think about the--in 2017 when the Department of Health 
and Human Services terminated an evidence-based teen pregnancy 
prevention program and instead redirected funding to 
abstinence-only education, which is jeopardizing the health of 
young people over ideology.
    I've been working on asbestos issues, and I've been 
extremely concerned that the EPA issued a rule that merely 
restricted the use of asbestos when about 60 other countries 
completely ban it, so they were--actually disregarded the 
advice of their own scientists and lawyers who advocated for a 
complete ban of the deadly carcinogenic substance in two 
internal memos. The EPA has no excuse for disregarding that 
science and the health of the American people.
    And as Mr. Clement was just talking about, despite the 
findings from the Fourth National Climate Assessment produced 
by scientists at 13 Federal agencies, the Administration 
continues to censor and suppress the term climate change, which 
is incredibly baffling but also dangerous. The climate crisis 
is an existential threat and of course a national emergency.
    Mr. Clement, thank you for your tireless work as a public 
servant. In your testimony, you discuss how providing 
policymakers with accurate and reliable science helps inform 
better decisions and that scientists should have a realistic 
expectation to be able to conduct and communicate their 
research without political interference. With these new 
realities, we have to prepare how to shape scientific integrity 
policies that can remain effective when we're confronted by an 
Administration that's hostile to science.
    So how has this censoring of science from the public at the 
Department of Interior affected the quality of regulatory 
action? And what protections can we put in place for Federal 
employees who want to inform the public about scientific 
information but are suppressed by political officials?
    Mr. Clement. Well, you know, even at the USGS, which is a 
nonregulatory body, we're seeing a lot of this censorship take 
place, so it doesn't even seem to be necessarily decisions that 
are linked to what we call these industry handouts at Interior. 
But there's a lot that can be done to support the scientists as 
they do their work, whether--as I mentioned earlier, you can't 
assume that your science is going to become policy. It's not 
that simple.
    Ms. Bonamici. Right.
    Mr. Clement. But you certainly can make--you can assume 
that you're going to be allowed to do your work, that you're 
going to be able to communicate that work to the public and to 
your peers. You're going to be able to participate with other 
scientists publicly in conferences, speak to the media. These 
are all things that you would expect to do as a scientist 
anywhere, and it's no different in the Federal science 
enterprise.
    So the H.R. 1709 goes a long way toward formalizing that, 
but also I think there's--it's important that there be measures 
taken to ensure ethics and integrity more broadly across the 
agency because scientific--a culture of scientific integrity is 
not likely to take hold if a notion of integrity is not taking 
hold in an agency. And right now, we're seeing certainly at 
Interior--where I'm most familiar--that's a real challenge.
    Ms. Bonamici. Thank you. I appreciate that. Mr. Halpern, in 
your testimony you mentioned that the April 2019 GAO report did 
not evaluate the effectiveness of the scientific integrity 
policies at nine Federal agencies, and GAO identify the Office 
of Science and Technology Policy's December 2010 scientific 
integrity memo as the guidance framework for Federal scientific 
integrity policies.
    So should the OSTP memo be considered the gold standard for 
integrity policies? And as this Committee considers 
Representative Tonko's Scientific Integrity Act, what 
opportunities exist to strengthen enforcement and effectiveness 
of those policies?
    Mr. Halpern. Yes, thank you. So I see the memorandum from 
December 2010 as a starting point. That was what came out when 
we didn't know what was going to work in Federal agencies. And 
so they put together a set of principles basically and asked 
the agencies to come up with scientific integrity policies. 
Some of them did. Some of them restated those principles and 
put it on a shelf and called it a day. We know from the GAO's 
reporting that the Department of Energy pretty much forgot that 
they had scientific integrity policy and didn't even assign a 
scientific integrity officer to be the point of contact for 
understanding what it was.
    And so I think we need to think of the language in the 
Holdren memo from December 2010 as a philosophical starting 
point but not necessarily think of it as the letter of the law.
    Ms. Bonamici. Thank you. I see my time is expired. I yield 
back.
    Chairwoman Stevens. Thank you so much. At this time I'm 
going to recognize myself for 5 minutes of questioning. And I'd 
also like to enter into the record the Climate Science Legal 
Defense Fund on behalf of Congresswoman Sherrill. And without 
objection, so ordered.Mr. Halpern, could you shine a little bit 
more light for us on the process and maybe give us some advice 
on weighing scientific fact versus policy at our Federal 
agencies?
    Mr. Halpern. The process of evaluating scientific integrity 
violations or----
    Chairwoman Stevens. The process of evaluating violations 
and/or the way in which we can take scientific recommendations 
from our Federal agencies to influence and impact policy and 
improve outcomes, particularly when there are violations.
    Mr. Halpern. Right. I think a lot of people are surprised 
that there were 24 agencies that developed policies. It was 
everything from the Consumer Product Safety Commission to the 
U.S. Fish and Wildlife Service to the Centers for Disease 
Control and Prevention. And so you see science on so many 
different issues and topics where science needs to inform 
policymaking, and we need to be able to make good decisions.
    Again, we're not talking about science being policy 
prescriptive. The bill in question is agnostic on the weight 
that science should be given to a specific policy decision. But 
it is important to protect the process that allows scientists 
to share their research with the public.
    Chairwoman Stevens. What does it mean when Federal 
employees are banned from using certain words as they try and 
do their work?
    Mr. Halpern. So we saw at CDC (Centers for Disease Control 
and Prevention) that scientists were prohibited from using 
phrases like evidence-based in describing their work in budget 
proposals. We've seen climate change as a word that scientists 
have either been told to avoid or have decided to keep their 
heads down and not talk about publicly. The surveys that we 
have done at Federal agencies found hundreds and hundreds of 
scientists reporting either being told not to talk about 
climate change or self-censoring and deciding that they are not 
going to step into that space to begin with. And so this robs 
the American people of being able to understand the threats 
that we face and it makes it easier for elected--for elected 
officials and other policymakers to make decisions without any 
type of accountability, to cherry-pick the information that 
they want to put forward to justify their decisions without a 
check--without a check on that. If the science isn't there, if 
scientists aren't able to share publicly their research 
results, that void is going to be filled by all kinds of 
misinformation and spin.
    Chairwoman Stevens. Can career Federal civil servants be 
fired for kind of not taking that advice from--or 
recommendations or enforcement from not using that language?
    Mr. Halpern. So, right now, when scientific integrity 
violations are brought forward in agencies that have 
adjudication methods, scientists--the scientists--the 
scientific integrity officer and usually a committee that's 
associated with that will evaluate whether there has been a 
loss of scientific integrity, whether someone's been censored, 
whether there has been manipulation or suppression of research 
methods and the like.
    And at that point there's a--it's not clear about what the 
recourse is. It's not clear about what public reporting there 
has to be related to the details of abuses of science. It's 
kind of up to the agency to say trust us, and it's become 
pretty clear that we can't trust them, that Congress needs to 
do both oversight but also put in place protections that are 
mandated through law that not only evaluate--that allow and 
empower these agency scientific integrity officers to do their 
jobs and to adjudicate these things but have consequences for 
those who transgress.
    Chairwoman Stevens. Did anyone else on the panel want to 
weigh in on the importance of having an independent scientific 
integrity official? Go ahead. We'll go to Mr. Clement and then 
Dr. Pielke.
    Mr. Clement. OK. I do. I--you know, this is something that 
would serve the agency and serve the career staff a lot, and it 
certainly would have served me as well. There--for every type 
of complaint, you have somewhere you can go. If it's a civil 
rights complaint, you have a civil rights office. If it's 
sexual harassment, you have the Merit System Protection Board. 
If it's a whistleblower complaint about public health and 
safety, you have the Office of Special Counsel. But in the case 
of scientific integrity, right now, you really have an 
unreliable process that--it's great that it exists, but there's 
nowhere that you can go you can count on having that kind of 
arbitration take place, so it's an absolutely essential----
    Chairwoman Stevens. Yes. Go ahead.
    Dr. Pielke. Yes, I just want to make one point about the 
politics of this proposed legislation. It clarifies and expands 
congressional oversight of the executive branch. And one reason 
why we're talking about the John Holdren memo of 2010 and not 
2013, 2014, 2015 is that--my hypothesis is that the Obama 
Administration slowed down scientific integrity issues because 
what they were doing was handing over to the Congress a new 
tool with which to have oversight over the executive branch.
    So this is very difficult legislation, I would think, 
because at some point it's going to hit one party or the other. 
So if the Republicans were still here--they're not--I would say 
this is an investment in your future. For Democrats, it's an 
investment in today to oversee the Republican Administration. 
But this is where I think the interests of Congress have to 
outweigh the party affiliation, which makes it so difficult.
    Mr. Halpern. Administrations----
    Chairwoman Stevens. Yes.
    Mr. Halpern [continuing]. Always say we're the good guys, 
trust us, we can govern ourselves and oversee the right 
information, and the opposite proves to be true.
    Chairwoman Stevens. Mr. Neumann.
    Mr. Neumann. Yes, I would just like to add that, you know, 
policies are just one part of scientific integrity. And 
certainly, we heard about that today. I mean, staff need to 
feel comfortable reporting alleged violations, and there needs 
to be a consistent and transparent process for investigating 
those violations and addressing--taking action in accordance 
with the results.
    Chairwoman Stevens. Yes, and it could actually be a 
positive reinforcement as well, you know, for the work that 
people are doing or a safe space to have conversations and to 
adjudicate or litigate, you know, maybe a tertiary way to do 
peer review in some respects.
    I think one thing is clear, that we are so grateful to all 
of our career Federal civil servants, who I think in these 
heightened and polarized times, no matter what segment of 
government you're working in or what topic, your work can 
sometimes feel difficult. And there's a lot of gratitude that 
we here on the Science Committee in particular have for our 
career Federal civil servants, those who make the National 
Institute of Standards and Technology's office hum with their 
great expertise, our VA officials and our medical professionals 
who help to run our Veterans Affairs Department.
    And taking office in the 116th Congress, being sworn in for 
the first time as a newly elected Member of Congress during a 
government shutdown, that set a real ricocheting effect I think 
for our entire freshman class being that we saw our government 
not functioning. And we're here to make sure that we do have a 
trusted and important voice and certainly the strong checks and 
balances.
    So I'm going to yield back the remainder of my time and 
want to, you know, bring the hearing to a close and thank our 
witnesses for testifying before the Committee.
    It's not necessarily that this ends on a failed crescendo 
by any stretch of the means. In fact, this is part of the 
important and essential dialog that we're having. This is a 
national news story around scientific integrity. There are 
changes happening to Administrations. We didn't even talk--get 
to ask questions because they weren't necessarily relevant to 
our expert witnesses here, but the changes taking place over at 
the USDA. And our Ranking Member Mr. Baird is now at a USDA 
hearing on I don't know what topic, but he does serve on the 
Agriculture Committee. And we do know that the USDA has moved 
their researchers out of D.C. and into Kansas for cost-saving 
measures.
    And we've got to have frank and open and honest and 
trustworthy conversations. I don't think we should be afraid of 
language. I don't think we should be afraid of inconvenient 
truths and things that we do not want to hear. And in fact, 
we're uniquely positioned in America to embrace challenges, to 
solve the impossible, to run after each other when we have an 
idea just like the people who hit the lands that ended up 
discovering America, challenged their notions of truth by 
saying, aha, the world is not flat, aha, I will sail across 
that great ocean, aha, I think we can go to the moon, as we 
were discussing and hearing yesterday, that we can push the 
boundaries to achieve greatness as couched within our great 
innovative capabilities as a Nation.
    And in fact, we really in America don't need to be afraid. 
We have courage, we have determination, and we have the eye on 
the prize, which is the truth.
    So thank you all for joining today. The record will remain 
open for 2 weeks for additional statements from Members and for 
any additional questions from the Committee that may be asked 
of the witnesses.
    The witnesses are now excused, and the hearing is 
adjourned. Thank you.
    [Whereupon, at 12:08 p.m., the Subcommittees were 
adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions



                   Answers to Post-Hearing Questions
Responses by Mr. John Neumann

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Responses by Mr. Michael Halpern

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Responses by Mr. Joel Clement

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                              Appendix II

                              ----------                              


               Additional Material for the Record




            Letter submitted by Representative Haley Stevens
            
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]            


             Letters submitted by Representative Paul Tonko
             
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]             

           Correspondence submitted by Representative Ralph Norman
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        


           Letter submitted by Representative Jennifer Wexton
           
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]           


            Document submitted by Representative Steve Cohen
            
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]            

           Letter submitted by Representative Mikie Sherrill
           
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]          

                                 <all>
</pre></body></html>
